NO. __________
_________________________________________________

In The
Supreme Court of the United States
____________________
H. RENEE JAMES,
v.

Petitioner,

CITY OF MONTGOMERY, ALABAMA,
Respondent.
____________________
On Petition for Writ of Certiorari
To The United States Court of Appeals
For The Eleventh Circuit
_________________________________________________
PETITION FOR WRIT OF CERTIORARI
_________________________________________________
TERRELL E. MCCANTS
POST OFFICE BOX 1451
BIRMINGHAM, AL 35201
(205) 202-5599

LISA M. IVEY
Counsel of Record
POST OFFICE BOX 2023
ANNISTON, AL 36202
(256) 835-5050

_________________________________________________

i
QUESTIONS PRESENTED
INTRODUCTION
Petitioner H. Renee James is a former police
officer with the City of Montgomery, Alabama, who
was a fourteen-year veteran at the time her
employment
was
terminated.
During
her
employment, James suffered what she alleged were
multiple unfounded or unfair disciplinary actions
based on her race (black) or her sex (female), which
culminated in her termination from employment with
the Police Department, allegedly under the City’s
progressive discipline policy, but which James
asserted
was
pursuant
to
impermissible
discrimination and retaliation due to her filing of the
instant lawsuit.
The district court and the Eleventh Circuit both
found that James had failed to meet her burden to
survive summary judgment as to either her claim of
discrimination or retaliation. In particular, the
Eleventh Circuit found that an allegedly
insubordinate email James sent to the Chief of Police
(and others) shortly before her termination was a
“major” employment violation; that James had two
prior “major” employment violations; and that
James’s termination was therefore “the culmination of
the Department’s progressive-discipline policy.”
Consequently, the Eleventh Circuit found that James
did not establish “but-for” causation in order to
survive summary judgment.

ii
The questions presented are:
1.
Whether the court deprives a plaintiff of
her First Amendment right to free speech and
expression when, in applying the McDonnell
Douglas framework in an employment case on
summary judgment, the court finds that an
employer may discipline an employee based on
the employee’s candid response to a request for
“feedback” about the work environment, and
then later rely on that discipline to terminate
her employment.
2.
Whether on summary judgment in a
Title VII retaliation case, the court misapplies
the “but-for” causation test when it allows an
employer to avoid liability by citing to some
other factor that allegedly contributed to the
challenged employment decision, rather than
recognizing that events often have multiple
“but-for” causes that raise conflicting
inferences about an employer’s intent that
require a jury to determine.

iii
LIST OF PARTIES
H. Renee James is the Plaintiff/Petitioner.
The City of Montgomery, Alabama, is the
Defendant/Respondent.
CORPORATE DISCLOSURE
STATEMENT
H. Renee James is an individual.
The City of Montgomery, Alabama, is a
municipal corporation incorporated under Alabama
law.
LIST OF ALL PROCEEDINGS
United States District Court for the
Middle District of Alabama
Civil Action No. 2:17-cv-528-ALB
H. Renee James v. City of Montgomery
Date of Entry of Judgment: July 25, 2019.
The Court’s decision is not officially published;
it is available at 2019 WL 3346530.
United States Court of Appeals for the
Eleventh Circuit
Docket No. 19-13-44
H. Renee James v. City of Montgomery
Date of Opinion: August 4, 2020
This opinion is published at James v. City of
Montgomery, 823 F. App'x 728 (11th Cir. 2020).

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED…………………………….i
LIST OF PARTIES………………………………………iii
CORPORATE DISCLOSURE STATEMENT……….iii
LIST OF ALL PROCEEDINGS……………………….iii
TABLE OF CONTENTS………………………………..iv
TABLE OF AUTHORITIES……………………………vi
Cases………………………………………………vi
Statutes…………………………………………...ix
PETITION FOR WRIT OF CERTIORARI……………1
OPINIONS AND ORDERS BELOW…………………..1
JURISDICTION………………………………………….1
CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED……………2
STATEMENT OF THE CASE………………………….3
REASONS FOR GRANTING THE WRIT…………...17
I.
The court deprives a plaintiff of her First
Amendment right to free speech and expression
when, in applying the McDonnell Douglas
framework in an employment case on summary

v
judgment, the court finds that an employer may
discipline an employee based on the employee’s
candid response to a request for “feedback”
about the work environment, and then later
rely on that discipline to terminate her
employment……………………………………...19
II.
On summary judgment in a Title VII
retaliation case, the court misapplies the “butfor” causation test when it allows an employer
to avoid liability by citing to some other factor
that allegedly contributed to the challenged
employment decision, rather than recognizing
that events often have multiple “but-for” causes
that raise conflicting inferences about an
employer’s intent that require a jury to
determine………………………………………...23
CONCLUSION………………………………………….32
APPENDIX
APPENDIX A
Court of Appeals Opinion filed August 4,
2020……………………………………………….1a
APPENDIX B
District Court’s Memorandum Opinion filed
July
25,
2019……………………………………15a

vi

TABLE OF AUTHORITIES
Cases
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 106 S. Ct. 2505, 91 L. Ed. 2d 202
(1986) ...................................................................... 31
Bostock v. Clayton Cty., Georgia,
140 S. Ct. 1731, 207 L. Ed. 2d 218 (2020) . 25, 26, 27
Boyland v. Corr. Corp. of Am.,
390 F. App'x 973 (11th Cir. 2010).......................... 28
Branti v. Finkel,
445 U.S. 507, 100 S. Ct. 1287, 63 L. Ed. 2d 574
(1980) ...................................................................... 19
Burrage v. United States,
571 U.S. 204, 134 S. Ct. 881, 187 L. Ed. 2d 715
(2014) ...................................................................... 26
Connick v. Myers,
461 U.S. 138, 103 S. Ct. 1684, 75 L. Ed. 2d 708
(1983) .......................................................... 19, 20, 21
Flowers v. Troup Cty., Ga., Sch. Dist.,
803 F.3d 1327 (11th Cir. 2015) ........................ 14, 24
Garcetti v. Ceballos,
547 U.S. 410, 126 S. Ct. 1951, 164 L. Ed. 2d 689
(2006) ...................................................................... 20
Givhan v. Western Line Consolidated School District,
439 U.S. 410, 99 S. Ct. 693, 58 L. Ed. 2d 619 (1979)
................................................................................ 19

vii
Goldsmith v. City of Atmore,
996 F.2d 1155 (11th Cir. 1993) .............................. 24
Hazen Paper Co. v. Biggins,
507 U.S. 604, 113 S. Ct. 1701, 123 L. Ed. 2d 338
(1993) ...................................................................... 24
Janus v. Am. Fed'n of State, Cty., & Mun. Employees,
Council 31,
138 S. Ct. 2448, 201 L. Ed. 2d 924 (2018) . 20, 22, 23
Johnson v. Miami-Dade Cty.,
948 F.3d 1318 (11th Cir. 2020) .............................. 29
Keyishian v. Board of Regents,
385 U.S. 589, 87 S. Ct. 675, 17 L. Ed. 2d 629 (1967)
................................................................................ 19
Lewis v. City of Union City, Georgia,
918 F.3d 1213 (11th Cir. 2019) ........................ 14, 24
McDonnell Douglas Corp. v. Green,
411 U.S. 792, 93 S. Ct. 1817, 36 L. Ed. 2d 668
(1973) .............................................................. passim
Mize v. Jefferson City Bd. of Educ.,
93 F.3d 739 (11th Cir. 1996) .................................. 31
James v. Montgomery,
823 F. App'x 728 (11th Cir. 2020).............. iii, 23, 27
Paulino v. Harrison,
542 F.3d 692 (9th Cir. 2008) .................................. 30
Pennington v. City of Huntsville,
261 F.3d 1262 (11th Cir. 2001) .............................. 27

viii
Perry v. Sindermann,
408 U.S. 593, 92 S. Ct. 2694, 33 L. Ed. 2d 570
(1972) ...................................................................... 19
Pickering v. Board of Education,
391 U.S. 563, 88 S. Ct. 1731, 20 L. Ed. 2d 811
(1968) ...................................................................... 19
Radomsky v. United States,
180 F.2d 781 (9th Cir. 1950) ............................ 30, 31
Smith v. Lockheed-Martin Corp.,
644 F.3d 1321 (11th Cir. 2011) ........................ 24, 25
Tennant v. Peoria & P.U. Ry. Co.,
321 U.S. 29, 64 S. Ct. 409, 88 L. Ed. 520 (1944) ... 30
Thomas v. Cooper Lighting, Inc.,
506 F.3d 1361 (11th Cir. 2007) ........................ 25, 28
Tolan v. Cotton,
572 U.S. 650, 134 S. Ct. 1861, 188 L. Ed. 2d 895
(2014) ........................................................................3
United States v. Scheffer,
523 U.S. 303 118 S. Ct. 1261, 140 L. Ed. 2d 413
(1998) ...................................................................... 30
United States v. Scruggs,
549 F.2d 1097 (6th Cir. 1977) ................................ 30
Univ. of Texas Sw. Med. Ctr. v. Nassar,
570 U.S. 338, 133 S. Ct. 2517, 186 L. Ed. 2d 503
(2013) ...................................................................... 26
Statutes

ix
28 U.S.C. § 1254(1) ......................................................1
42 U.S.C. § 1981 ........................................................ 12
42 U.S.C. § 2000e-2(a) ........................................... 2, 12
42 U.S.C. § 2000e-3(a) ........................................... 2, 12

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner H. Renee James respectfully prays
that this Court grant a writ of certiorari to review the
judgment and opinion of the United States Court of
Appeals for the Eleventh Circuit, entered on August
4, 2020.
OPINIONS AND ORDERS BELOW
The August 4, 2020, per curiam opinion of the
Eleventh Circuit was designated “DO NOT
PUBLISH.” It is available at 823 F. App'x 728 (11th
Cir. 2020). It is also reproduced at App. A, 1a-14a.
The Memorandum of the District Court for the
Middle District of Alabama, entered July 25, 2019, is
unpublished and is included at App. B, 15a-48a. It can
also be found at 2019 WL 3346530.
JURISDICTION
The Eleventh Circuit issued its Panel Opinion
on August 4, 2020. This petition is timely under
Supreme Court Rule 13.1 and the Order of Thursday,
March 19, 2020, providing that the deadline to file any
petition for a writ of certiorari due on or after March
19, 2020, is extended to 150 days from the date of the
lower court judgment, order denying discretionary
review, or order denying a timely petition for
rehearing. This Court has jurisdiction under 28
U.S.C. § 1254(1).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
RELEVANT CONSTITUTIONAL PROVISION
The First Amendment to the United States
Constitution provides in relevant part: “Congress
shall make no law … abridging the freedom of speech,
or of the press …”
RELEVANT STATUTORY PROVISIONS
Section 703(a) of Title VII of the Civil Rights
Act of 1964, 42 U.S.C. § 2000e-2(a), provides in
pertinent part:
It shall be an unlawful employment practice for
an employer-(1) to fail or refuse to hire or to discharge any
individual, or otherwise to discriminate
against any individual with respect to his
compensation,
terms,
conditions,
or
privileges of employment, because of such
individual's race, color, religion, sex, or
national origin.
part:

42 U.S.C. § 2000e-3(a) provides in pertinent
It shall be an unlawful employment practice for
an employer to discriminate against any of his
employees or applicants for employment, for an
employment
agency,
or
joint
labormanagement
committee
controlling

3
apprenticeship or other training or retraining,
including on-the-job training programs, to
discriminate against any individual, or for a
labor organization to discriminate against any
member thereof or applicant for membership,
because he has opposed any practice made an
unlawful employment practice by this
subchapter, or because he has made a charge,
testified, assisted, or participated in any
manner in an investigation, proceeding, or
hearing under this subchapter.
STATEMENT OF THE CASE
FACTUAL BACKGROUND1
A. General Overview of James’s Employment
History and EEOC Filings
H. Renee James is an African American
female.2 At the time of her discharge from
employment, James was a fourteen-year veteran of
the Montgomery Police Department.3
From June 2010 until June of 2015, James
worked as a Robbery Detective in the Major Crimes
Bureau.4 James, while assigned to the Major Crimes
Because this case was decided on a motion for summary
judgment, “reasonable inferences should be drawn in favor of the
nonmoving party.” Tolan v. Cotton, 572 U.S. 650, 656, 134 S. Ct.
1861, 188 L. Ed. 2d 895 (2014).
2 Doc. 85, at ¶ 39; Doc. 121-1, at ¶ 2.
3 Doc. 85, at ¶ 40; Doc. 121-1, at ¶ 3.
4 See Doc. 130, at 2. James was briefly transferred from the
“Major Crimes” Bureau to the “General Crimes” Bureau from
February 2015 until June 2015 but remained a detective.
1

4
Bureau, was the only African American and only
female detective assigned to the Bureau.5 Indeed, the
Montgomery Police Department had not otherwise
employed an African American female as a Homicide
Detective since the early 1990s where a single African
American woman was the first and only Homicide
investigator within the department.6 In June 2015,
James was reassigned to the Patrol Division, where
she remained until her employment was terminated
in November 2017.
As discussed more fully below, James
experienced her first disciplinary action that
evidenced disparate treatment based on race or sex in
2013; she first complained of racially and sexually
discriminatory acts on January 23, 2015, to Deputy
Chief Cook; she made another such complaint in a
letter to Chief Finley on March 13, 2015; and her
initial EEOC charge was filed on May 8, 2015, with a
second following on November 30, 2015.7 James was
terminated while this lawsuit was pending.8
B. James’s Discipline History
1. 2013
James suffered multiple unfounded or unfair
disciplinary actions throughout her employment with
the City. The first of these concerned an incident that
occurred on April 16, 2013, with the disciplinary
charges ensuing on May 20, 2013.
Doc. 85, at ¶ 41; Doc. 121-1, at ¶ 3.
Doc. 85, at ¶ 97; Doc. 121-1, at ¶ 4.
7 See Doc. 130, at 13.
8 See id.
5
6

5
On April 16, 2013, James’s daughter, who was
on a school bus, called to inform James that a boy hit
her during a fight on the bus.9 James (while
admittedly off duty and outside her jurisdiction)
stopped the school bus and detained the boy who had
assaulted her daughter, which assault had left the
daughter badly beaten with swelling and bruises on
her face, a black eye, and a busted lip.10 James notified
her immediate supervisor at the time, Sergeant J.
Hall (“Hall”), a white male, of the incident
immediately after receiving the call from her
daughter, and advised him immediately after the
incident of all the details.11 Hall, though, failed to
notify the Criminal Investigations Division (“CID”)
Command; instead, he falsely told CID Major Bryan
Jurkofsky, a white male, that James did not fully
disclose the incident.12
During the ensuing disciplinary process,
Jurkofsky charged James with violating three
departmental policies regarding the said incident, to
include: Wrongful Arrest, Improper Use of City
Equipment (using the vehicle’s emergency lights to
stop the school bus), and Duties to Responsible
Employment.13 Although this was James’s first
offense, Jurkofsky recommended that James be
suspended for 120 working hours and required to
attended
mandatory
counseling
for
anger
management, allegedly due to the “seriousness” of the

Doc. 85, at ¶ 43; Doc. 121-1, at ¶ 5.
Doc. 85, at ¶ 43; Doc. 121-1, at ¶ 5.
11 Doc. 85, at ¶ 44; Doc. 121-1, at ¶ 8.,
12 Doc. 85, at ¶¶ 45-46; Doc. 121-1, at ¶¶ 10-11.
13 Doc. 85, at ¶ 47; Doc. 121-1, at ¶ 12.
9

10

6
offense.14 Jurkofsky also threatened James with being
arrested and placed in jail over the incident.15
Yet, Jurkofsky also advised James on several
occasions, during and after the conclusion of the
investigation that he “would’ve done the same thing
or worse” had it been his child aboard the school bus.16
James’s ultimate punishment for this incident
was a nineteen-day suspension without pay and an
order to attend mandatory psychological counseling
for “anger management.”17 This punishment was far
harsher than that received shortly thereafter
sometime in 2014 by Detective Christopher Hogan (a
white male), who severely assaulted a black male and
then lied during the internal affairs investigation.
That detective received a three-day suspension
(without mandatory counseling)18 and was not
threatened with termination of employment, nor was
he threatened with being jailed for excessive use of
force.19
2. 2015
On February 9, 2015, a citizen filed a complaint
against James. The complaint involved James
allegedly degrading an arrestee (who was the son of a
See Doc. 130, at 4.
Doc. 85, at ¶¶ 48-49; Doc. 121-1, at ¶ 14.
16 Doc. 85, at ¶ 48; Doc. 121-1, at ¶ 13.
17 Doc. 85, at ¶¶ 50-56; Doc. 121-1, at ¶ 16.
18 The suspension might have been four days, but, regardless,
was de minimis and far less than that imposed on James for
much less severe conduct.
19 Doc. 85, at ¶¶ 50-56; Doc. 121-1, at ¶ 15.
14
15

7
man convicted of murdering a Montgomery police
officer) and calling the father names like “loser” and
“piece of shit.”20 James’s supervisor (Sergeant Bruce
Thornell, a white male), used the citizen complaint
(which he encouraged or “coached” in any event) as an
opportunity to commence retaliation against James.21
On February 18, 2015, Thornell and James met
regarding the citizen complaint, as well as James
being late to work. Admittedly, due to Thornell’s
continuing hostility toward James, during this
meeting, James’s frustration led to her employing a
“less than amicable disposition and tone when
expressing matters of concern with Sgt. Thornell.”22
James was relieved of her duties the next day, but was
reinstated by the new Chief of Police, Ernest N.
Finley, within the hour.23 On prior occasions,
similarly heated (or even more heated) discussions
had occurred between Thornell and Corporal G.
Schnupp, a white male, but unlike James, charges
were
never
brought
against
Schnupp
for
insubordination, boisterous and disruptive activity in
the workplace, and neither was he ordered to attend
mandatory psychological counseling for anger.24
Following Finley’s reinstatement of James, she
began to receive letters of reprimand for miniscule
things; that is, her performance was scrutinized and
nitpicked, especially relative to white officers.25 For
See Doc. 130, at 5.
Doc. 85, at ¶¶ 69-74; Doc. 121-1, at ¶ 16.
22 Doc. 85, at ¶ 74; Doc. 121-1, at ¶ 17.
23 Doc. 85, at ¶ 76; Doc. 121-1, at ¶ 21.
24 Doc. 85, at ¶ 82; Doc. 121-1, at ¶ 19.
25 Doc. 85, at ¶ 77; Doc. 121-1, at ¶ 22.
20
21

8
example, when James called out sick for an illness of
her children and made a decision to nurse them rather
than incur a $100 copay, she was written up for not
providing a sick excuse although white detectives that
called out sick far more often were never asked to
provide an excuse from a doctor’s office and although
prior to complaining of race/sex discrimination,
Plaintiff had never been asked by CID supervisors to
produce an excuse before returning to work from
being out sick.26
As the investigation into the February 9, 2015
citizen complaint and Thornell’s allegations about the
February 18, 2015 meeting continued, the
investigation was reassigned. The investigator to
whom it was reassigned told James that Command
“wanted the conclusion of the case to yield founded
charges against” James and that the outcome was
“influenced by members of the Staff, particularly
Simmons and Jurkofsky.”27
And that is exactly what happened. On June 4,
2015, James was served with a statement of
disciplinary charges, both as to the February 9, 2015
citizen complaint and the February 18, 2015 meeting
with Thornell. James’s ultimate punishment,
following a meeting with the Chief, review by the
Director and Mayor, and an appeal by James, was a
29-day suspension.28

Doc. 85, at ¶ 77; Doc. 121-1, at ¶ 23.
Doc. 85, at ¶¶ 79-81; Doc. 121-1, at ¶ 24.
28 See Doc. 130, at 7-8.
26
27

9
3. 2017
The 2017 incident that led to James’s
termination was a candid email James sent to a police
captain who had solicited feedback on the unusually
high turnover rate within the Police Department. She
also sent the email to the Chief of Police, Chief of
Operations John Bowman and Chief of Staff Chris
Wingard on September 26, 2017.29 Although James’s
email was in response to one that had solicited a
response from employees,30 again, James’s candor on
the poisonous atmosphere of discrimination at the
Montgomery Police Department was unfairly
characterized as “insubordination” and used as a
pretext to terminate her employment, the end of a
sustained effort to find any reason to get rid of James.
C. Other Relevant Employment Events
1. 2013
During 2013, while assigned to the Major
Crimes Bureau, James was shouted at and treated in
a hostile manner almost daily by her supervisor,
Thornell, a white male, whose comments to Plaintiff
included stating that she [Plaintiff] is just like his
wife, and that we [women] are all the same.31
2. 2015
On January 23, 2015, James verbally
complained of racially and sexually discriminatory
Doc. 121-1, at ¶ 34.
Doc. 85, at ¶ 115, Doc. 121-1, at ¶ 35.
31 Doc. 85, at ¶ 61; Doc. 121-1, at ¶ 25.
29
30

10
acts against her to Deputy Chief Cook -- particularly
Thornell’s hostility toward her and her denial of
requests to transfer from Robbery to Homicide.32
(Note that this meeting with Cook, where James tried
to get some relief, predates by approximately only two
weeks the citizen complaint that was encouraged and
coached by Thornell). During the meeting, Cook made
inappropriate and unprovoked sexual comments and
seductive gestures, which were ignored by James;
despite this conduct, Cook also assured Plaintiff he
would discretely address the issues with Jurkofsky
and assured Plaintiff that he would rectify the
complaints, which was fine with James as long as her
concerns were handled.33 But, after meeting with
Cook and after not accepting his sexual advances,
Thornell’s treatment towards Plaintiff became
increasingly worse.34
On February 5, 2015 (a scant four days before
the citizen complaint), James contacted Cook, asking
if he had contacted Jurkofsky yet about her
complaints of race/sex discrimination and hostility
from supervision, because since their meeting, her
treatment by supervision had become increasingly
worse. Cook advised that he had not contacted anyone
regarding their conversation.35
On March 13, 2015, James provided a written
complaint to Chief Finley about the racially and
sexually discriminatory behavior and retaliation

Doc. 85, at ¶ 66; Doc. 121-1, at ¶ 30.
Doc. 85, at ¶ 66; Doc. 121-1, at ¶ 31; See also Doc. 130, at 9-10.
34 Doc. 85, at ¶ 67; Doc. 121-1, at ¶ 32.
35 Doc. 85, at ¶ 68; Doc. 121-1, at ¶ 33.
32
33

11
directed at her.36 Among other things, James
specifically stated that CID Command finds a way to
rectify complaints without involving Internal Affairs
or written discipline when the involved officer is part
of their “clique” or “one of their white counterparts,”
but not when the officer is black.37 On March 17, 2015,
an investigator was appointed to supposedly look into
these matters.38
On May 8, 2015, James filed her initial EEOC
charge; a second followed on November 30, 2015.39
James was terminated while this lawsuit was
pending.40
3. Refusal to Transfer
James was repeatedly passed over or not
considered for a transfer to the Homicide Bureau
(without explanation), but a General Crimes detective
(white male Corporal Mason Wells), who had only
been an investigator for six months as compared to
James’s years of experience, was selected for
additional training so that he could be selected for a
Homicide Bureau position.41
The stated reason for James’s non-transfer was
that, allegedly, a policy required that a letter of
transfer had to be submitted through the CID chain of

See Doc. 130, at 12.
See id.
38 See id.
39 See id. at 13.
40 See id.
41 Doc. 85, at ¶¶ 63-65; Doc. 121-1, at ¶ 26.
36
37

12
command.42 However, this policy is generally only
true for officers who are not already assigned to the
CID in an investigative capacity (for example, officers
in the Patrol Division who want to transfer). Officers
already in the CID are shown courtesy by being
allowed to inner-divisionally transfer without a letter
of transfer.43 Indeed, CID was not able to produce the
allegedly required letters of transfer for the last four
detectives who transferred (all of whom happened to
be white males).44
PROCEEDINGS BELOW
James filed her action against the City on
August 4, 2017. As amended, and as following the
dismissal of some originally named parties and
claims,
the
complaint
asserted
workplace
discrimination and retaliation under 42 U.S.C. § 1981
and Title VII of the Civil Rights Act of 1964 (“Title
VII”), 42 U.S.C.§§ 2000e-2, 2000e-3.
The City moved for summary judgment,
generally asserting (1) that James’s conduct was not
statutorily protected45 (2) that James could not show
the requisite “causal connection” between her conduct
and the adverse employment action,46 and (3) that the
City had a legitimate, non-retaliatory reason for the
adverse employment action.47 The City also appeared

Doc. 85, at ¶¶ 98-99; Doc. 121-1, at ¶ 27.
Doc. 85, at ¶¶ 98-99; Doc. 121-1, at ¶ 28.
44 Doc. 85, at ¶¶ 98-99; Doc. 121-1, at ¶ 29.
45 See Doc. 115 at 10-15.
46 See id. at 15-17.
47 See id. at 17.
42
43

13
to argue that James had not identified any valid
comparators.48
The district court agreed with the City. At the
threshold, it generally concluded that James’s sworn
declaration, “for the most part,” failed to create a
factual record that defeated summary judgment.49
The district court (incorrectly) condemned the
declaration as “full of inconsistencies, speculation,
ambiguities, and statements made without personal
knowledge.”50
The district court then applied the McDonnell
Douglas framework to James’s discrimination claim
and found that she had not established a prima facie
case as to any of the challenged employment actions,
for various reasons.
As to James’s 2013 suspension, the district
court found that she had not identified a valid
comparator because the alleged misconduct at issue
was not sufficiently similar.51 As to the March 4, 2015
warning, the district court similarly found that James
had not demonstrated the existence of valid
comparators with sufficient specificity.52 As to the
denial of James’s transfer requests, the Court found
that such denial was not an adverse employment
action, because, according to the district court, James

See id at 17-19.
See Doc. 130, at 14.
50 Id.
51 See id. at 20-24.
52 See id. at 25.
48
49

14
failed to show that a reasonable person would have
preferred the transfer.53
Last, but not least as to James’s discrimination
claim, the district court found that James had failed
to present a “convincing mosaic” of circumstantial
evidence to create a triable issue of fact.54 In this
regard, the district court generally found that James
had not shown that the instances of discrimination
she identified involved the decisionmakers as to the
employment actions.55
Turning to James’s retaliation claim, the
district court again applied McDonnell Douglas as its
framework in analyzing the claim. Here, though, the
district court significantly found that James first
engaged in protected activity on January 23, 2015,
and March 13, 2015, when she submitted verbal and
written complaints to her superior officers regarding
race and sex discrimination and the more favorable
discipline received by white officers.56 And, of course,
James’s EEOC complaint of May 8, 2015, was
indisputably protected activity.57
Nevertheless, the district court also rejected
James’s retaliation claim. In doing so, the district
See id. at 17-20.
See id. at 25-28. See Lewis v. City of Union City, Georgia, 918
F.3d 1213, 1220 (11th Cir. 2019); Flowers v. Troup Cty., Ga., Sch.
Dist., 803 F.3d 1327, 1336 (11th Cir. 2015) (recognizing that
establishing the elements of the McDonnell-Douglas framework
“is not, and was never intended to be, the sine que non for a
plaintiff to survive a summary judgment motion”).
55 See Doc. 130, at 26.
56 Id. at 29-30.
57 Id. at 30.
53
54

15
court found that, as to the 2015 employment actions,
there was no showing that the decisionmakers knew
about the protected activity.58
However, it was when it turned to the 2017
decision to terminate James’s employment that the
district court made its most significant error. The
district court noted that, when James filed the instant
lawsuit, and, at the time she sent the “insubordinate”
September 27, 2017 email that led to her termination,
“James was already at the last step before
termination under the City’s progressive discipline
policy.” The district court then concluded that the City
“took steps to ensure that it disciplined James in the
same manner as others who were disciplined for the
same violation.”59 According to the district court,
“[t]his suggests the opposite of a retaliatory motive.”
The district court concluded: “Because James
has failed to show that the Mayor acted with a
retaliatory motive and that her termination was
anything more than the culmination of her extensive,
and often egregious, discipline history, James’s
retaliation claims fail.”
On appeal, James argued that the district court
erred by rejecting portions of her sworn declaration.
As to the merits of her retaliation claim,60 James
See id. at 31-35.
See id. at 37.
60 Although James addressed the various flaws with the district
court’s reasoning regarding her discrimination claim on appeal
as well, this petition is primarily concerned with the
misapplication of the “but-for” causation standard and the
impact of the First Amendment on James’s termination in 2017.
58
59

16
argued that a reasonable jury could infer that,
although her 2015 suspension did not occur until well
into 2015, the retaliatory conduct began a mere two
weeks after James’s first protected conduct in
January
2015,
commencing
with
Thornell
encouraging and coaching a citizen complaint in order
to manufacture a disciplinary action against James,61
then “tacking on” a claim of insubordination against
James. James also pointed out that Hudson had not
denied that he was aware of James’s protected
conduct and requiring James to “prove” Hudson’s
knowledge ran afoul of the “convincing mosaic” rule
and imposed an unwarranted summary-judgment
burden on James.
Last, but not least, James argued that her
disciplinary history was part and parcel of the
pervasive race and gender discrimination that
pervaded her employment, and, consequently, the
district court could not have concluded that James’s
firing was, as a matter of law, merely the legitimate
end of a supposedly legitimate progressive
disciplinary policy. Strikingly, James was subjected to
an internal affairs investigation that had a predetermined outcome that was “influenced by members
of the Staff.”62 And, perhaps most strikingly, James’s
final disciplinary (for an alleged lack of respect)
stemmed out of her sending of a candid email in reply

Consequently, James does not address in detail the flaws in the
lower courts’ analyses of the discrimination claims for the 2013
and 2015 adverse employment actions.
61 Doc. 85, at ¶¶ 69-74; Doc. 121-1, at ¶ 16.
62 Id, at ¶¶ 79-80.

17
to one that had solicited just such a response from the
employees.63
The Panel found that the district court did not
err in disregarding some of James’s sworn
declaration. As to the race and sex discrimination
claims, the Panel found that they failed under both
the McDonnell Douglas framework and the
convincing-mosaic theory. And, just as the district
court did, the circuit court found that James’s
termination was simply the culmination of the
Department’s progressive-discipline policy:
She was already at the last step before
termination when she sent an email to
the Chief of Police (and others in higher
management)
asserting
that
the
Department was run like a Middle
Eastern
dictatorship.
An
official
investigation ensued. It was determined
that this Category B major violation
(insubordination) had been preceded by
two previous Category B major
violations, a circumstance which had
resulted in termination in the past.
Based on the recommendation of the
investigation, the Mayor terminated
James’s employment.
REASONS FOR GRANTING THE WRIT
This case presents two important issues
relating to employment-discrimination law. The first
involves the collision of the well-settled McDonnell
63

Doc. 121-1, at ¶ 35.

18
Douglas burden shifting test at summary judgment
with the fundamental and substantive First
Amendment right to free speech and expression when
the
employer’s
proffered
“legitimate
nondiscriminatory
reason”
for
the
adverse
employment action is an employee’s disciplinary
history, where that disciplinary history was based in
part on alleged “insubordination” that consisted of a
candid response to a request by the employer for
“feedback” from its employees about the work
environment. The court deprives a plaintiff of her
First Amendment right to free speech and expression
when, in applying the McDonnell Douglas framework
in an employment case on summary judgment, the
court finds that an employer may discipline an
employee based on the employee’s candid response to
a request for “feedback” about the work environment,
and then later rely on that discipline to terminate her
employment
The second issue is whether on summary
judgment in a Title VII retaliation case, the court
misapplies the “but-for” causation test when it allows
an employer to avoid liability by citing to some other
factor that allegedly contributed to the challenged
employment decision, rather than recognizing that
events often have multiple “but-for” causes that raise
conflicting inferences about an employer’s intent that
require a jury to determine. A court does misapply the
“but-for” test when it fails to recognize that, so long as
there was one impermissible “but-for” cause for the
decision, liability may be triggered. These issues are
discussed in turn below.

19
THE FIRST AMENDMENT
At the heart of this case lies one of the most
important
fundamental
and
substantive
Constitutional rights: James’s First Amendment right
to free speech and expression. In the seminal case of
Pickering,64 this Court settled that a state cannot
condition public employment on a basis that infringes
the employee's constitutionally protected interest in
freedom of expression.65 The task then becomes, as
defined in Pickering, the seeking of “a balance
between the interests of the [employee], as a citizen,
in commenting upon matters of public concern and the
interest of the State, as an employer, in promoting the
efficiency of the public services it performs through its
employees.”66 Although many of the cases dealing
with this issue involve a public employees’ public
comments, the First Amendment protection still
applies when a public employee arranges to
communicate privately with his employer rather than
to express his views publicly.67

Pickering v. Board of Education, 391 U.S. 563, 88 S. Ct. 1731,
20 L. Ed. 2d 811 (1968).
65 Connick v. Myers, 461 U.S. 138, 142, 103 S. Ct. 1684, 1687, 75
L. Ed. 2d 708 (1983) (citing Keyishian v. Board of Regents, 385
U.S. 589, 605–606, 87 S. Ct. 675, 684–685, 17 L. Ed. 2d 629
(1967); Pickering, 391 U.S. 563; Perry v. Sindermann, 408 U.S.
593, 597, 92 S. Ct. 2694, 2697, 33 L. Ed. 2d 570 (1972); Branti v.
Finkel, 445 U.S. 507, 515-516, 100 S. Ct. 1287, 1293, 63 L. Ed. 2d
574 (1980)).
66 Pickering, 391 U.S. at 568.
67 Connick, 461 U.S. at 146 (citing Givhan v. Western Line
Consolidated School District, 439 U.S. 410, 99 S. Ct. 693, 58 L.
Ed. 2d 619 (1979)).
64

20
Under Pickering and later cases in the same
line, employee speech is largely unprotected if it is
part of what the employee is paid to do,68 or if it
involved a matter of only private concern.69 On the
other hand, when a public employee speaks as a
citizen on a matter of public concern, the employee's
speech is protected unless “‘the interest of the state,
as an employer, in promoting the efficiency of the
public services it performs through its employees'
outweighs ‘the interests of the [employee], as a citizen,
in commenting upon matters of public concern.’”70
Whether an employee's speech addresses a matter of
public concern must be determined by the content,
form, and context of a given statement, as revealed by
the whole record.71
For example, in Connick, this Court held that
an assistant district attorney's complaints about the
supervisors in her office were, for the most part,
matters of only private concern.72 Under the specific
circumstances presented, this Court held that the
limited First Amendment interest did not require the
district attorney to tolerate action which he
reasonably believed would disrupt the office,
undermine his authority, and destroy close working
relationships, and the assistant’s discharge therefore
did not offend the First Amendment.73
See Garcetti v. Ceballos, 547 U.S. 410, 421-22, 126 S. Ct. 1951,
164 L. Ed. 2d 689 (2006).
69 See Connick, 461 U.S. at 146–149.
70 Janus v. Am. Fed'n of State, Cty., & Mun. Employees, Council
31, 138 S. Ct. 2448, 2471–72, 201 L. Ed. 2d 924 (2018) (other
internal citation and quotation omitted).
71 Connick, 461 U.S. at 147–48.
72 Id. at 148.
73 Id. at 154.
68

21

James’s case, though, compels the opposite
result, and her discharge does offend the First
Amendment. Notably, in Connick, the assistant
district attorney took it upon herself to circulate a
“questionnaire” around the office soliciting the views
of her fellow staff members concerning office transfer
policy, office morale, the need for a grievance
committee, the level of confidence in supervisors, and
whether employees felt pressured to work in political
campaigns.74
James’s situation stands in sharp contrast. In
2015, her supervisor began to treat her with
disrespect,
scrutinized
and
nitpicked
her
performance, and handled alleged job performance
issues much more harshly than those of fellow
Caucasian
employees.
When
James
finally
complained to upper command, the scrutiny and
“nitpicking” by her supervisor quickly escalated into
letters of reprimand for miniscule things that had
never been pointed out to James before and which
never were made the basis for discipline of white
detectives. Then, James was subjected to an internal
affairs investigation that had a pre-determined
outcome that was “influenced by members of the
Staff.”
And then, in 2017, James made the fatal
mistake of sending a candid email to a police captain
who had solicited feedback on the unusually high
turnover rate within the Police Department. She also
sent the email to the Chief of Police, Chief of
74

Id. at 141.

22
Operations John Bowman and Chief of Staff Chris
Wingard on September 26, 2017.75 Although James’s
email was in response to one that had solicited a
response from employees,76 James’s candor on the
poisonous atmosphere of discrimination at the
Montgomery Police Department was unfairly
characterized as “insubordination” and used as a
pretext to terminate her employment, the end of a
sustained effort to find any reason to get rid of James.
Under these circumstances, James’s speech not
only addressed a matter of public concern but was
solicited by her employer. Finding that her response
was “insubordinate,” and then using that
“insubordination” to terminate her employment,
offends the First Amendment. This result is
illustrated by a hypothetical posed by this Court in
Janus. This Court asked itself: what if, in Connick,
the assistant district attorney had not made any
critical comments about her supervisors, but had
refused to go along with a demand that she circulate
a memo praising the supervisors?77 As this Court
noted, “[w]hen a public employer does not simply
restrict potentially disruptive speech but commands
that its employees mouth a message on its own behalf,
the calculus is very different.”78 Analogously, this
Court should find that the calculus is very different
when an employer solicits an opinion on a matter of
public concern (here, high police department
turnover, which could certainly interfere with the
Department’s public safety mission as a whole) and
Doc. 121-1, at ¶ 34.
Doc. 85, at ¶ 115, Doc. 121-1, at ¶ 35.
77 Janus, 138 S. Ct. at 2473.
78 Id.
75
76

23
then punishes an employee because it does not like the
opinion expressed or the manner in which it was
expressed, even though there was no indication that
James’s opinion interfered with her duties.
In turn, in considering summary judgment and
applying the McDonnell Douglas framework to
James’s claims, the lower courts erred in granting
summary judgment to the City on the basis that the
“but-for” causation of James’s termination was simply
the allegedly legitimate culmination of an allegedly
legitimate progressive disciplinary policy.79 This is so
because this conclusion relied on a finding that
James’s email was a “Category B major violation
(insubordination)” that had been preceded by two
previous “Category B” violations, and that employees
had been terminated from the Police Department
based on such circumstances in the past.80 But, the
implicit underlying conclusion that James could
properly be disciplined for speech and expression that
falls within the purview of the First Amendment
cannot stand without offending that Amendment. The
Constitution does not allow this result.
THE MCDONNELL DOUGLAS FRAMEWORK
AND THE “BUT-FOR” CAUSATION TEST
Absent direct evidence, a claim for intentional
discrimination is analyzed under the familiar burdenshifting framework established in McDonnellDouglas
See James v. City of Montgomery, 823 F. App'x 728, 735 (11th
Cir. 2020).
80 See id.
79

24
Corp. v. Green.81 Under the McDonnell-Douglas
framework, a plaintiff must first establish a prima
facie case of discrimination.82 To establish a prima
facie case, a plaintiff must show that (1) she was in a
protected class, (2) she was qualified to perform the
job, (3) she suffered an adverse employment action,
and (4) other similarly-situated individuals outside of
her protected class were treated more favorably.83 If
the plaintiff establishes a prima facie case, the burden
then shifts to the employer to offer a legitimate, nondiscriminatory reason for the adverse employment
action.84 Once the employer meets its burden of
production, the burden shifts back to the plaintiff to
show that the employer’s proffered reason is pretext
for unlawful discrimination.85
Title VII also protects an employee against
retaliation by her employer for opposing any practice
prohibited by Title VII; such a claim, when based on
circumstantial evidence, is also analyzed under the
McDonnell Douglas framework.86 A prima facie case
of retaliation under Title VII requires the plaintiff to
show that: (1) she engaged in a protected activity; (2)
she suffered an adverse employment action; and (3)

McDonnell Douglas Corp. v. Green, 411 U.S. 792, 93 S. Ct.
1817, 36 L. Ed. 2d 668 (1973), holding modified by Hazen Paper
Co. v. Biggins, 507 U.S. 604, 113 S. Ct. 1701, 123 L. Ed. 2d 338
(1993).
82 Id. at 1336.
83 Lewis, 918 F.3d at 1220–21.
84 Flowers, 803 F.3d at 1336.
85 Smith v. Lockheed-Martin Corp., 644 F.3d 1321, 1326 (11th
Cir. 2011).
86 See Goldsmith v. City of Atmore, 996 F.2d 1155, 1162–63 (11th
Cir. 1993).
81

25
there was a causal relation between the two events.87
Causation must be established according to
traditional principles of “but-for” causation.88
It is notable, though, that “establishing the
elements of the McDonnell Douglas framework is not,
and never was intended to be, the sine qua non for a
plaintiff to survive a summary judgment motion in an
employment discrimination case.”89 A plaintiff will
survive summary judgment if she presents “a
convincing mosaic of circumstantial evidence that
would allow a jury to infer intentional discrimination
by the decisionmaker.” “[S]o long as the
circumstantial evidence raises a reasonable inference
that the employer discriminated against the plaintiff,
summary judgment is improper.”90
In this case, both lower courts, and the
Eleventh Circuit in particular, misapplied the “butfor” causation test when they allowed the City to avoid
liability for its adverse employment actions against
Thomas v. Cooper Lighting, Inc., 506 F.3d 1361, 1363 (11th
Cir. 2007).
88 Bostock v. Clayton Cty., Georgia, 140 S. Ct. 1731, 1739, 207 L.
Ed. 2d 218 (2020).
89 Smith, 644 F.3d at 1328.
90 Id. The district court and Eleventh Circuit both assumed,
without deciding, that a retaliation claim could potentially
survive summary judgment under a “convincing mosaic” theory
but found that James’s evidence did not meet that standard.
Again, because this petition focuses on the misapplication of the
“but-for” causation standard, James will confine her discussion
to the requirements of a prima facie case rather than this theory,
but respectfully does not concede that she lacked a “convincing
mosaic” as to her claims; indeed, the evidence was in abundance
regarding rife discrimination at the Montgomery Police
Department.
87

26
James. A careful analysis of the decisions show that
James was held to an incorrect, heightened burden of
proof on the causation element.
As this Court has recently clarified, “but-for”
can be “a sweeping standard.”91 This is so because,
logically, events often have multiple “but-for” causes.
In Bostock, this Court illustrated the principle by
referring to a typical car accident: “So, for example, if
a car accident occurred both because the defendant
ran a red light and because the plaintiff failed to
signal his turn at the intersection, we might call each
a but-for cause of the collision.”92 Importing this line
of thinking into the realm of Title VII, this Court quite
correctly held that:
When it comes to Title VII, the adoption
of the traditional but-for causation
standard means a defendant cannot
avoid
liability
just
by
citing
some other factor that contributed to its
challenged employment decision. So long
as the plaintiff 's [protected trait] was
one but-for cause of that decision, that is
enough to trigger the law.93
A close reading of the Panel’s decision in
particular shows that it interpreted the “but-for”
causation standard far too narrowly and stringently
Bostock, 140 S. Ct. at 1739.
Id. (citing Burrage v. United States, 571 U.S. 204, 211–212, 134
S. Ct. 881, 187 L. Ed. 2d 715 (2014)) (emphasis in original).
93 Id. (citing Univ. of Texas Sw. Med. Ctr. v. Nassar, 570 U.S. 338,
350, 133 S. Ct. 2517, 186 L. Ed. 2d 503 (2013)) (emphasis
supplied, other internal citation and quotation omitted).
91
92

27
against James. Significantly, the Panel faulted James
for allegedly failing to produce evidence creating a
genuine issue of material fact as to whether there was
a causal connection between her statutorily protected
activity and adverse employment actions. As to the
first two disciplinary actions, the Panel held that
James supposedly “did not produce evidence showing
that the decisionmakers of the first two disciplinary
actions knew of her protected activity.”94 The Panel
continued:
While it is undisputed that the final
decisionmaker
behind
James’s
employment termination (the Mayor)
knew of her protected activity (the filing
of the instant lawsuit), James did not
produce evidence that would allow a
reasonable juror to conclude that her
protected activity, which occurred
almost four months before the
termination, was the but-for cause of it.
Her termination was the culmination of
the Department's progressive-discipline
policy.”95
The lower courts’ overreliance on the “temporal
proximity” test overlooked James’s other substantial
evidence relating to causation and how it met the “bet
for” test. As the Eleventh Circuit has held, and as
Bostock confirms, the causal link requirement is
meant to be construed broadly.96 While a plaintiff may
See James, 823 F. App'x at 734–35.
See id.
96 See Pennington v. City of Huntsville, 261 F.3d 1262, 1266 (11th
Cir. 2001) (citation omitted).
94
95

28
establish causation “by showing close temporal
proximity between the statutorily protected activity
and the adverse employment action,”97 causation may
be shown by other evidence and circumstances as
well. And, here, James was not relying on mere
“temporal proximity,” but on substantial other
evidence of causation that readily met the “but-for”
standard.98
First, the retaliatory acts commenced very
shortly after James’s January 23, 2015 meeting with
Cook -- her first protected conduct. Indeed, the March
4, 2015 written warning about not having a medical
excuse, given by Hudson, that the district court
referenced in its summary-judgment order,99 was not
the first instance of retaliation. Rather, the record
discloses that approximately only two weeks after the
January meeting, Thornell encouraged and coached a
citizen complaint in order to manufacture a
disciplinary action against James,100 then “tacked on”
a claim of insubordination against James.
To be sure, under these circumstances, a
reasonable jury could infer that the reason Thornell
encouraged and coached the citizen complaint and
brought insubordination charges in February was in
Thomas, 506 F.3d at 1364 (citation omitted).
See Boyland v. Corr. Corp. of Am., 390 F. App'x 973, 974–75
(11th Cir. 2010) (“In the absence of close temporal proximity
between the protected activity and the employer's adverse action,
a plaintiff may be able to establish causation where intervening
retaliatory acts commenced shortly after the plaintiff engaged in
a protected activity.” (citation omitted)).
99 See Doc. 130, at 31.
100 Doc. 85, at ¶¶ 69-74; Doc. 121-1, at ¶ 16.
97
98

29
retaliation for James’s protected activity.101 Too, as to
the different reprimand by Hudson, in the absence of
any other reason why Hudson would treat James
more harshly than white detectives, a reasonable jury
could likewise infer retaliation from the March
reprimand. Requiring James to somehow adduce
further evidence to “prove” that Thornell and Hudson
“knew” about the protected conduct incorrectly
imposed a heightened burden on James to survive
summary judgment.
The conclusion that there was no causal
connection between James’s protected conduct and
her 2017 termination fares even worse under the
correct analysis of the “but-for” standard. At the
threshold, everyone has conceded that the Mayor
knew about James’s lawsuit when he made the
decision to terminate her.102 And, as stated more fully
above, James’s supposed disciplinary history, rather
than forming an allegedly “legitimate” basis for her
termination, was actually part and parcel of the
pervasive race and gender discrimination that
pervaded her employment.
In considering summary judgment, the court
misapplies the “but-for” causation test when it allows
an employer to avoid liability by citing to some other
Cf. Johnson v. Miami-Dade Cty., 948 F.3d 1318, 1328–29
(11th Cir. 2020) (although not finding causation in that
particular case, noting that, when a disciplinary action is based,
at least in part, on a falsified report of insubordination, summary
judgment may be precluded when the original falsified report
was in retaliation for EEOC complaints and when “no other
reason for such a falsified report was readily apparent”).
102 See Doc. 130, at 35.
101

30
factor that allegedly contributed to the challenged
employment decision, rather than recognizing that
events often have multiple “but-for” causes that raise
conflicting inferences about an employer’s intent that
require a jury to determine. That is exactly what
happened here -- James presented evidence of one
“but-for” cause for the Department’s employment
actions (retaliation for protected activity) and the
Department presented another (her alleged
disciplinary history), and the lower courts accepted
the City’s alleged “but-for” cause. This invaded the
sacred province of a jury to choose from competing
inferences and incorrectly substitutes the courts’ own
inferences.103
A foundational principle of the jury system is
that when parties disagree about a question of intent,
“the jury is the lie detector.”104 It is uniquely the skill
set of a jury to determine intent from circumstantial
evidence. In fact, the very way we talk about
“inferences” and “circumstantial evidence” highlights
the jury's role. Inferences are conclusions that
“common experience” permits us to draw from
circumstantial
evidence.105
To
evaluate
circumstantial evidence, a factfinder must draw an
See Tennant v. Peoria & P.U. Ry. Co., 321 U.S. 29, 35, 64 S.
Ct. 409, 88 L. Ed. 520 (1944) (“Courts are not free to reweigh the
evidence … merely because the jury could have drawn different
inferences or conclusions or because judges feel that other results
are more reasonable.”).
104 United States v. Scheffer, 523 U.S. 303, 313 118 S. Ct. 1261,
140 L. Ed. 2d 413 (1998) (internal quotation marks omitted).
105 See, e.g., Paulino v. Harrison, 542 F.3d 692, 700 n.6 (9th Cir.
2008) (citing Radomsky v. United States, 180 F.2d 781, 783 (9th
Cir. 1950)); United States v. Scruggs, 549 F.2d 1097, 1104 (6th
Cir. 1977).
103

31
“inference based on human experience that a certain
circumstance is usually present when another certain
circumstance or set of circumstances is present.”106
Preserving the power of the jury to draw
inferences when the evidence conflicts is a well-settled
principle in a court’s evaluation of summary
judgment, and it is explicitly not the role of the court
"to weigh conflicting evidence or to make credibility
determinations."107 Nowhere should this be truer than
in a legal test for whether a party’s given reason is
pretext.
In James’s case, though, purportedly using
McDonnell Douglas, federal judges, without a jury,
laid out all the inferences urged by both parties and
those judges weighed them and chose among them, an
application of the McDonnell Douglas framework that
was inconsistent with the summary judgment process,
James’s right to a jury, and a correct application of the
“but-for” causation test.
At the end of the day, taking the record in the
light most favorable to James, the lower courts could
not have concluded that the firing was, as a matter of
law, merely the legitimate end of a supposedly
legitimate progressive disciplinary policy. Rather, the
lower courts should have recognized that events often
Radomsky, 180 F.2d at 783.
Mize v. Jefferson City Bd. of Educ., 93 F.3d 739, 742 (11th Cir.
1996); see also Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255,
106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986) (explaining that
"[c]redibility determinations, the weighing of the evidence, and
the drawing of legitimate inferences from the facts are jury
functions, not those of a judge").
106
107

32
have multiple “but-for” causes that raise conflicting
inferences about an employer’s intent that require a
jury to determine. In turn, the lower courts should
have denied summary judgment based on the
inferences James raised regarding retaliatory intent.
CONCLUSION
For the reasons stated above, the petition for a
writ of certiorari should be granted.
Respectfully submitted,

LISA M. IVEY
Counsel of Record
POST OFFICE BOX 2023
ANNISTON, AL 36202
(256) 835-5050

TERRELL E. MCCANTS
POST OFFICE BOX 1451
BIRMINGHAM, AL 35201
(205) 202-5599

APPENDIX TO THE PETITION
FOR A WRIT OF CERTIORARI
H. Renee James v. City of Montgomery, Alabama
TABLE OF CONTENTS
Opinion of the United States Court of Appeals for the
Eleventh Circuit (August 4, 2020)……………………1a
Memorandum of the United States District Court for
the Middle District of Alabama (July 25, 2019)……15a

1a

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
___________________________
No. 19-13044
Non-Argument Calendar
____________________________
D.C. Docket No. 2:17-cv-00528-ALB-WE
H. RENEE JAMES,
Plaintiff–Appellant,
versus
CITY OF MONTGOMERY,
Defendant–Appellee.
___________________________
Appeal from the United States District Court
for the Middle District of Alabama
____________________________
(August 4, 2020)

2a
Before WILSON, LUCK, and ANDERSON, Circuit
Judges.
PER CURIAM:
Hortensia James, a former officer with the
Montgomery, Alabama, Police Department, brought
the instant suit against the Department for workplace
discrimination and retaliation. James, an AfricanAmerican female, raised claims of race and sex
discrimination and retaliation under 42 U.S.C. § 1981
and Title VII of the Civil Rights Act of 1964 (“Title
VII”), 42 U.S.C.§§ 2000e-2, 2000e-3. The district court
granted the City of Montgomery summary judgment
on James’s claims.
James appeals from this
determination—and argues that the district court
improperly disregarded portions of her declaration.
After carefully reviewing the record, we affirm.
I. BACKGROUND
A.
James’s Allegations
While we write only for the benefit of the
parties, we nonetheless set out the facts insofar as
they are relevant for understanding our opinion.
Hortensia James, an African-American female,
worked as a police officer in the Robbery bureau of the
Department. While working for the Department, she
was repeatedly disciplined for misconduct and was
denied an opportunity to transfer to the Homicide
Bureau. She alleges that the punishments she
received, along with the denial of her transfer request,
occurred because the Department was discriminating
against her on the basis of her sex and race.
We summarize James’s allegations as follows.
In 2013, she received a 19-day suspension after
stopping a school bus to detain a minor who had hit

3a
her daughter, while a white male officer in the
Department received only a 3-day suspension for
using excessive force against a suspect and lying
about it during the subsequent investigation. Her
requests to be transferred to the Homicide Bureau
from the Robbery Bureau were ignored, but a less
qualified white male officer had received training so
that he could be moved to the Homicide Bureau once
his training was complaint. She complained to
Deputy Chief Ron Cook about race and sex
discrimination in January 2015. Shortly thereafter,
Sergeant Bruce Thornell helped coach a citizen into
filing a complaint against James, leading to James
confronting Thornell.
At some point, Sergeant
Hudson, James’s superior, issued a written reprimand
against James for not providing a doctor’s note for
missing work, a requirement not enforced against
white detectives who called out sick.
The
investigation of the citizen complaint and the
confrontation with Sergeant Thornell resulted in
James’s suspension in 2015. A white male detective,
Corporal Schnupp, had similar confrontations with
Sergeant Thornell without being disciplined. Another
white man, Detective Geier, received only a 3-day
suspension after cursing his supervisor.
James was ultimately terminated from her
position after sending an email to the Department’s
Chief of Police, Chief of Staff, and Chief of Operations
that compared the Department to a small “Middle
Eastern country” that was run like a “dictatorship.”
After the Department investigated the incident,
James’s superior recommended that she be
terminated. Then-Mayor Todd Strange approved
James’s termination on November 21, 2017.

4a
B.
The Instant Lawsuit
Prior to her termination, James filed the
instant lawsuit against the City on August 4, 2017.
She amended her complaint following her termination
in February 2018. In relevant part, James raised
retaliation and race and sex discrimination claims
against the City,1 based on the aforementioned
allegations. The City, in turn, moved for summary
judgment. James offered her declaration as her sole
evidentiary support for the allegations in her
complaint and in opposition to the City’s motion for
summary judgment.
The district court granted the City’s motion for
summary judgment. As a preliminary matter, it
found that James had failed to create a factual record
on which it could evaluate her claims, and that her
declaration was full of inconsistencies, speculation,
ambiguities, and statements made without personal
knowledge.
Accordingly, the district court
disregarded “any improper statements” in the
declaration and considered the rest of it as needed.
Ultimately, the district court determined that James
had not made out a prima facie case for either
discrimination or retaliation, and that James’s
discrimination claims similarly failed under a
convincing-mosaic theory. James timely appealed.
II. DISCUSSION
We review de novo a district court’s grant of
summary judgment, “construing all facts and drawing
all reasonable inferences in favor of the nonmoving
party.” Jefferson v. Sewon Am., Inc., 891 F.3d 911,
James dismissed with prejudice her claims against all other
parties. She also dismissed with prejudice her harassment
claims against the City.
1

5a
919 (11th Cir. 2018).
Summary judgment is
appropriate when the record evidence shows that
there is no genuine dispute as to any material fact and
the moving party is entitled to judgment as a matter
of law. Fed. R. Civ. P. 56(a). Moreover, a non-moving
party cannot survive summary judgment by
presenting “a mere scintilla of evidence” and must
instead present evidence from which a reasonable jury
could find in its favor. Brooks v. Cty. Comm’n of
Jefferson Cty., Ala., 446 F.3d 1160, 1162 (11th Cir.
2006) (quotation marks omitted).
The party moving for summary judgment bears
the initial burden to identify any portions of the
pleadings, depositions, answers to interrogatories,
and affidavits demonstrating the absence of a genuine
issue of material fact. Jones v. UPS Ground Freight,
683 F.3d 1283, 1292 (11th Cir. 2012). The burden
then shifts to the nonmoving party to rebut that
showing by producing relevant and admissible
evidence beyond the pleadings. Id. The nonmoving
party cannot satisfy its burden with evidence that is
“merely colorable, or is not significantly probative of a
disputed fact.” Id. (quotation marks omitted).
James’s appeal focuses on the alleged
impropriety of the district court’s grant of summary
judgment to the City on her discrimination and
retaliation claims.
We address each of these
arguments in turn, but begin first with James’s
argument that the district court improperly
disregarded parts of her declaration.
A.
James’s Declaration
A non-conclusory affidavit which complies with
Federal Rule of Civil Procedure 56, even if self-serving
and uncorroborated, can create a genuine dispute
concerning an issue of material fact. United States v.

6a
Stein, 881 F.3d 853, 858-59 (11th Cir. 2018).
Affidavits submitted in support of a summary
judgment motion must be based on personal
knowledge, show that the affiant or declarant is
competent to testify, and set out facts that would be
admissible under the Federal Rules of Evidence. Fed.
R. Civ. P. 56(c)(4). Conclusory allegations have no
probative value unless supported by specific facts.
Leigh v. Warner Bros., Inc., 212 F.3d 1210, 1217 (11th
Cir. 2000).
Here, the district court stated that it
disregarded as conclusory her allegation about white
detectives not requiring doctor’s notes and that four
white men had transferred into the Homicide Bureau
without letters of transfer; it disregarded her
allegation that a less qualified white man received
additional training to join the Homicide Bureau as
speculation not supported by the evidence. James
argues that the district court improperly disregarded
these statements because they were neither
conclusory nor speculative.
We conclude that the district court did not err
in disregarding these statements. Those statements
were conclusory allegations that had no probative
effect because they were not based on specific facts.
See Leigh, 212 F.3d at 1217. She alleged that her 2015
written
reprimand
was
retaliatory
without
identifying times she had previously called in sick
without being reprimanded or the white officers who
called in sick far more often or the circumstances
under which they called in sick. Her allegations
regarding the Homicide Bureau were seemingly
contradictory, as she simultaneously alleged that she
was provided no explanation for her transfer being
denied and that she was told that her transfer was

7a
denied because of a letter-of-transfer policy. James
provided no specific facts regarding her denial of
transfer, such as how many times she requested
transfer, when she requested transfer, and who made
the decision to deny her request. Her allegations that
four white men had transferred to the Homicide
Bureau without letters of transfer or that a lesser
qualified white male detective was receiving
additional training so he could join the Homicide
Bureau were conclusory and not supported by any
evidence, and indeed, were in tension with her
testimony that no one transferred to the Homicide
Bureau while she was working at the Robbery
Bureau.
On balance, we conclude that these
statements were conclusory in nature and therefore
had no probative value; the district court properly
disregarded them.
B.
Race and Sex Discrimination Claims
Title
VII
prohibits
employers
from
discriminating against any individual with respect to
her compensation, terms, conditions, or privileges of
employment “because of” her race or sex. 42 U.S.C. §
2000e-2(a)(1). Section 1981 prohibits “intentional
race discrimination in the making and enforcement of
public and private contracts, including employment
contracts.” Ferrill v. Parker Group, Inc., 168 F.3d 468,
472 (11th Cir. 1999); 42 U.S.C. § 1981. The elements
of race discrimination claims under § 1981 and Title
VII are the same and therefore need not be analyzed
separately.
See Rice-Lamar v. City of Fort
Lauderdale, 232 F.3d 836, 843 n.11 (11th Cir. 2000).

8a
Under the McDonnell-Douglas2 burdenshifting framework, an employee may establish a
prima facie case of discrimination by showing that (1)
she is a member of a protected class; (2) she is
qualified for the position; (3) she was subject to an
adverse employment action; and (4) the employer
treated a similarly situated employee outside of the
protected class more favorably. Smith v. LockheedMartin Corp., 644 F.3d 1321, 1325 (11th Cir. 2011).
When an employee alleges that she was denied a
different job in the same organization, she must
establish that a reasonable person would prefer being
transferred to the new position for that denial to
amount to an adverse employment action. Jefferson,
891 F.3d at 921. She may do so through evidence of
improved wages, benefits, or rank, as well as other
serious and material changes in the terms, conditions,
and privileges of employment, such as the prestige of
the position. Id.
To the extent a plaintiff seeks to show disparate
treatment of comparators of a different race or sex,
those individuals must be similarly situated. See
Silvera v. Orange Cty. School Bd., 244 F.3d 1253, 1259
(11th Cir. 2001). For comparators to be similarly
situated, they do not have to be “nearly identical,” but
rather, “similarly situated in all material respects.”
Lewis v. City of Union City, Ga., 918 F.3d 1213, 1218
(11th Cir. 2019) (en banc).
The meaningful
comparator analysis must be conducted at the prima
facia stage of McDonnell-Douglas’s burden-shifting
framework and should not be moved to the pretext
stage. Id. Ordinarily, a similarly situated comparator
2

McDonnell-Douglas v. Green, 411 U.S. 792 (1973).

9a
will have engaged in the same basic misconduct as the
plaintiff, been under the same supervisor, and share
the plaintiff’s disciplinary history. See id. at 1228.
Notwithstanding a plaintiff’s failure to
establish a prima facie case of discrimination under
McDonnell-Douglas, she will always survive
summary judgment if she presents a convincing
mosaic of circumstantial evidence that creates a
triable issue about the employer’s discriminatory
intent. Smith, 644 F.3d at 1328. A plaintiff may
establish a “convincing mosaic” “by evidence that
demonstrates, among other things, (1) suspicious
timing, ambiguous statements . . . , and other bits and
pieces from which an inference of discriminatory
intent might be drawn, (2) systematically better
treatment of similarly situated employees, and (3)
that the employer’s justification is pretextual.” Lewis
v. City of Union City, Ga., 934 F.3d 1169, 1185 (11th
Cir. 2019) (Lewis II) (quotation marks omitted).
James argues that she was subjected to race
and sex-based discrimination for (1) the denial of her
transfer to the Homicide Bureau; and (2) the two
instances of discipline for alleged misconduct. With
respect to the first allegation, James’s specific
argument is that the reason given by the City for
denying her transfer—that she was required to have
a letter of transfer—was pretextual because that
policy did not apply to four white, male officers who
transferred. James’s argument is much the same with
respect to the second allegation. Here, she argues
that Detective Hogan and Corporal Schnupp received
lesser discipline for similar actions, and that the
difference can be explained because of discrimination
on the City’s part.

10a
We conclude that the district court correctly
granted summary judgment for the City as to James’s
discrimination claims—both because James has failed
to make out a prima facie case for discrimination and
because her claims fail under a convincing-mosaic
theory. James has conceded that her discrimination
claims were predicated on three events—a denial of
internal transfer and two disciplinary actions.
Beginning with the prima facie case, James’s
allegations of discriminatory conduct are insufficient.
With respect to her allegation regarding the denied
transfer, the district court concluded that James
failed to demonstrate that the transfer to the
Homicide Bureau was an adverse employment action,
but that even if it was, James had failed to identify a
valid comparator. Instead, the allegation that she
made—that other detectives transferred into the
Bureau without meeting the ostensible requirement
of a letter of transfer—was conclusory and made
without direct personal knowledge.
We cannot
conclude that James’s vague allegations of other,
successful transfers is sufficient to create a valid
comparator. Moreover, James’s argument regarding
pretext—that because other detectives transferred
without the letter, her denial was pretextual—
necessarily depends upon the existence of a valid
comparator.
James’s second set of allegations fails for much
the same reason. She failed to produce evidence
showing that the allegation comparators, Hogan and
Schnupp, were similarly situated to her in all material
respects. With respect to her 2013 suspension, the
incidents that Hogan and James were disciplined
for—Hogan for using excessive force on a subject and
James for stopping a school bus while off-duty (and

11a
out of her jurisdiction) to arrest a student for fighting
with her daughter—were not materially similar.
Moreover, she did not produce evidence showing that
she and Hogan had a similar history or were
disciplined by the same supervisor at the time that
they were punished. See Lewis, 918 F.3d at 1228. As
to her 2015 written reprimand issued by Sergeant
Hudson, James identified no individual as a
comparator and instead relied on her conclusory
allegation that white detectives were not required to
provide doctor’s notes when they called out sick. Her
argument that Schnupp was a valid comparator for
how Thornell treated her does not relate to any of the
three instances of alleged discrimination. In any
event, James did not produce evidence showing that
she and Schnupp shared the same disciplinary history
or were being disciplined for the same conduct when
Sergeant Thornell interacted with them. See id.
Accordingly, James failed to establish a prima facie
case of race or sex discrimination under the
McDonnell-Douglas framework.
We also conclude that James also failed to
produce a convincing mosaic of circumstantial
evidence that created a triable issue about the City’s
discriminatory intent. James’s declaration—the only
evidence on which she relied in opposing summary
judgment—did not allow for a reasonable inference of
the City’s discriminatory intent when considered with
the rest of the undisputed facts. Accordingly, we
affirm the district court’s grant of summary judgment
for the City on James’s discrimination claims and now
address her retaliation claims.
C.
Retaliation Claims
Title VII protects an employee against
retaliation by their employer because the employee

12a
has (a) opposed any practice prohibited by Title VII or
(b) participated in any manner in any investigation,
proceeding, or hearing under Title VII. See 42 U.S.C.
§ 2000e-3(a); EEOC v. Total Sys. Servs., Inc., 221 F.3d
1171, 1174 (11th Cir. 2000). While 42 U.S.C. § 1981
does not expressly protect individuals from
retaliation, it has been interpreted as doing so. See
CBOCS W., Inc. v. Humphries, 553 U.S. 442, 451-52
(2008); Andrews v. Lakeshore Rehab. Hosp., 140 F.3d
1405, 1412-13 (11th Cir. 1998). The elements of
retaliation claims under § 1981 and Title VII claims
are the same and therefore need not be analyzed
separately. See Butler v. Ala. Dep’t of Transp., 536
F.3d 1209, 1212-13 (11th Cir. 2008).
A retaliation claim based on circumstantial
evidence is analyzed under the McDonnell-Douglas
burden-shifting framework. See Goldsmith v. City of
Atmore, 996 F.2d 1155, 1162-63 (11th Cir. 1993). A
prima facie case of retaliation under Title VII requires
the plaintiff to show that: (1) she engaged in a
protected activity; (2) she suffered an adverse
employment action; and (3) there was a causal
relation between the two events. Thomas v. Cooper
Lighting, Inc., 506 F.3d 1361, 1363 (11th Cir. 2007).
A causal link between protected expression and
the materially adverse action arises where the
defendant was aware of the protected activity and
took materially adverse action as a result. Shannon
v. BellSouth Telecomm., Inc., 292 F.3d 712, 716 (11th
Cir. 2007). To establish causation, a plaintiff needs to
show that the decisionmaker actually knew about her
protected expression. Martin v. Fin. Asset Mgmt. Sys.,
Inc., 959 F.3d 1048 (11th Cir. 2020). Under a “cat’s
paw” theory of liability, the discriminatory animus of
a non-decisionmaker can be imputed to a neutral

13a
decisionmaker that acted as a mere conduit.
Crawford v. Carroll, 529 F.3d 961, 979 n.21 (11th Cir.
2008).
Causation must be established according to
traditional principles of but-for causation, which
requires “proof that the desire to retaliate was the
but-for cause of the challenged . . . action.” Univ. of
Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338, 339 (2013).
Accordingly, a plaintiff is required to present at
summary judgment enough evidence from which a
reasonable juror could find her protected activity was
a but-for cause of the adverse employment action. See
Knox v. Roper Pump Co., 957 F.3d 1237, 1245 (11th
Cir. 2020). Causation may be inferred by close
temporal proximity between the protected activity
and the adverse employment action. Thomas, 506
F.3d at 1364. A three- to four-month period between
the protected activity and adverse employment action
is not sufficient. Id.
Here, we conclude that the district court
correctly granted summary judgment for the City on
James’s retaliation claims—predicted on three
disciplinary actions, including her employment
termination—because she did not produce evidence
creating a genuine issue of material fact as to whether
there was a causal connection between her statutorily
protected activity and adverse employment actions.
James did not produce evidence showing that the
decisionmakers of the first two disciplinary actions
knew of her protected activity. While it is undisputed
that the final decisionmaker behind James’s
employment termination (the Mayor) knew of her
protected activity (the filing of the instant lawsuit),
James did not produce evidence that would allow a
reasonable juror to conclude that her protected

14a
activity, which occurred almost four months before
the termination, was the but-for cause of it. Her
termination was the culmination of the Department’s
progressive-discipline policy. She was already at the
last step before termination when she sent an email
to the Chief of Police (and others in higher
management) asserting that the Department was run
like a Middle Eastern dictatorship. An official
investigation ensued. It was determined that this
Category B major violation (insubordination) had
been preceded by two previous Category B major
violations, a circumstance which had resulted in
termination in the past.
Based on the
recommendation of the investigation, the Mayor
terminated James’s employment.
Assuming, arguendo, but not deciding, that
retaliation claims can survive summary judgment
under a convincing-mosaic theory, her declaration—
the only evidence on which she relied—did not create
a convincing mosaic of circumstantial evidence that
created a triable issue about the City’s retaliatory
intent. Accordingly, we affirm the district court’s
grant of summary judgment for the City on James’s
retaliation claims.
III. CONCLUSION
For the foregoing reasons, we conclude that the
district court properly granted the City of
Montgomery summary judgment on James’s
discrimination and retaliation claims. The district
court’s order is
AFFIRMED.

15a
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
H. RENEE JAMES,
Plaintiff,
v.
CITY OF MONTGOMERY,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

CASE NO.
2:17-cv-528-ALB

MEMORANDUM OPINION AND ORDER
Plaintiff H. Renee James brought this
employment discrimination action against her former
employer, the City of Montgomery (the “City”),108
alleging (1) race and sex discrimination under Title
VII of the Civil Rights Act, as amended, 42 U.S.C. §§
James originally filed this action against the City, the City of
Montgomery Police Department (the “Police Department”), the
City of Montgomery Personnel Department, the City of
Montgomery City Investigations (“City Investigations”), and
several individually-named defendants.
See Doc. 1.
On
September 21, 2017, the City, the Police Department, and City
Investigations moved to dismiss the action for failure to state a
claim (Doc. 23), which was granted as to only the Police
Department and City Investigations. (Doc. 65). All other
defendants, except the City, have since been dismissed with
prejudice pursuant to the parties’ Joint Stipulation of Dismissal.
(Docs. 116 and 117).
108

16a
2000e et seq. (“Title VII”), and 42 U.S.C. § 1983 (“§
1983"); (2) race discrimination under 42 U.S.C. § 1981
(“§ 1981"); and (3) retaliation under Title VII and §
1981.109 (Doc. 85). This matter comes before the Court
on the City’s Motion for Summary Judgment. (Doc.
114.) For the reasons stated below, the motion is due
to be granted.BACKGROUND
James, an African American female, was
employed by the City as a police officer for fourteen
years. From June 2010 until June 2015, James
worked as a detective in the Criminal Investigations
Division (“CID”). Specifically, from June 2010 until
approximately February 2015, James was a Robbery
detective in the Major Crimes Bureau and was the
only African American female assigned to that
bureau. From approximately February 2015 until
June 2015, James was a detective in the General
Crimes Bureau.3 And in June 2015, James was
reassigned to the Patrol Division as a Corporal and
eventually promoted to Sergeant.4 While employed by
the City, James was subject to multiple disciplinary
actions, which, under the City’s progressive discipline
policy, ultimately led to her termination in November
2017.
I.
James’s Relevant Discipline History
A.
2013 Suspension
On April 16, 2013, when James was on her way
to work, she received a call from her daughter, who
James’s Amended Complaint also asserts claims against the
City for retaliation under § 1983 and a hostile work
environment under Title VII, § 1981, and § 1983. (Doc. 85).
Pursuant to the parties’ Joint Stipulation of Dismissal (Doc.
116), those claims have been dismissed with prejudice. (Doc.
117).

109

17a
was on a school bus. James’s daughter informed
James that a boy hit her during a fight on the bus.
After receiving her daughter’s call, James activated
her emergency equipment on her patrol vehicle,
pulled her vehicle in front of the bus to stop it on its
route, entered the bus and removed the boy, and
detained him in the back of her vehicle until a county
deputy arrived at the scene.5 This incident occurred
while James was off duty and outside of the police
jurisdiction of the City of Montgomery. According to
James, immediately after the incident, she fully
disclosed the details to her supervisor, Sergeant Hall
(white male),6 but Sgt. Hall failed to notify CID
Command7 of the incident and told the Commander of
the CID, Major Bryan Jurkofsky (white male), that
James did not fully disclose the incident.
James’s conduct related to this incident
violated multiple policies established by the City and
the Police Department. As a result, James was
charged with violating the following policies: (1)
Article II, Section 2.102 Duties of Responsible
Employment (Engaging in any activity which may
reflect negatively on the integrity, competency, or
ability of the individual to perform his/her duty, or
may reflect negatively on the Department); (2) Article
II, Section 2.111 Duty in Off Duty Arrest; and (3)
The race and gender of each individual involved in the incidents
related to this lawsuit are not clear from the record. Thus, the
Court only indicates the race and gender of an individual where
it is clearly identified in the record.
6

Given the context in which it is used, the Court assumes that
CID Command is made up of more than one person (and is not
the same as the Commander of CID), though it is unclear from
the record.
7

18a
Article II, Section 2.102 Duties of Responsible
Employment (Prompt and accurate reporting of all
official matters).
Under the City’s progressive discipline policy,
James’s offense was considered a Category B-Major
Violation. A Category B violation can begin at any of
the five discipline steps. Though this was James’s
first Category B offense, due to the seriousness of the
offense, the recommended disciplinary action began at
Step 3 under the policy, which has a punishment
range of a five (5) to fifteen (15) day suspension. Major
Jurkofsky recommended to Chief of Police Kevin
Murphy that James be suspended for 120 working
hours and required to attend mandatory counseling
for anger management. Chief Murphy upheld Major
Jurkofsky’s recommendation and made the same
recommendation to Director of Public Safety
Christopher Murphy (“Director Murphy”). James
waived her right to a hearing before the Mayor, and
on June 12, 2013, the Mayor issued his decision to
suspend James for 120 working hours. James was
suspended from July 10 until July 30, 2013.
Sometime later in 2014, James observed an
African American male, who had been arrested and
appeared to have been beaten, being brought into the
CID. According to James, in relation to this incident,
Detective Christopher Hogan (white male) was
suspended for violating the Use of Excessive Force
policy in some way.8
B.
2015 Suspension
James’s statements throughout the record, including her
Declaration, alternate between whether the suspension was a
three- or four-day suspension. However, this distinction is
immaterial to the Court’s analysis.
8

19a
On February 8, 2015, 15-year-old Marquise
Woodward was arrested by another officer and
encountered James during the booking process.
Woodward’s father was convicted in 2008 of
murdering a Montgomery police officer.
When
Woodward claimed that the police framed his father,
James told Woodward that his father had killed a cop
and that he was a loser. The next day, Woodward’s
mother contacted Sergeant Bruce Thornell (white
male), James’s supervisor at the time, to file a
complaint against James regarding the incident.9
On February 19, 2015, Sgt. Thornell met with
James to discuss the February 8, 2015 incident and to
discuss James being tardy that day without notifying
him. But in the meeting, James, who had previously
been counseled for disrespectful behavior toward her
supervisors, became hostile and disrespectful. Sgt.
Thornell contacted another sergeant, Sergeant T.D.
James (black male), to come to his office to serve as a
witness. After the incident, Lieutenant C.J. Coughlin
obtained statements from James, Sgt. Thornell, and
Sgt. James. According to Sgt. James’s statement, Sgt.
James informed Sgt. Thornell after the incident that
James’s behavior was inappropriate and needed to be
addressed. In addition, Sgt. James stated that James
exhibited a lack of respect for Sgt. Thornell during the
entire conversation and that, during his time with the
According to the City’s records, Woodward’s mother reported to
Sgt. Thornell that James called Woodward’s father a “piece of
shit” and “continually degraded [Woodward] because of who his
father was.” She also claimed James “threatened bodily harm to
him.” The arresting officer, Officer Lowe, also reported to Sgt.
Thornell that James “stated to Woodward ‘that piece of shit is
your father.’”

9

20a
department, he had never witnessed that type of
interaction between a supervisor and subordinate. In
James’s statement, she admitted that she lacked tact
and diplomacy and used a “less than amicable
disposition and tone when expressing matters of
concern with Sgt. Thornell.” She also described her
discuss with Sgt. Thornell as “extremely
argumentative” and stated that Woodward’s father
was “in fact the ‘loser’ [she] categorized him as.”
James was briefly relieved of her duties,10 but she was
reinstated by Chief of Police Ernest N. Finley within
the hour on the same day.
Based on these two incidents, James was
ultimately charged with several violations of
departmental and city handbook policies, including:
(1) Article I, Section 1.401 Human Relations, (2)
Article II, Section 2.102 Duties of Responsible
Employment
(Respect
to
the
Public),
(3)
Insubordination or lack of cooperation, (4) Abuse of
authority over employees or citizens, (5) Acting in
conflict with the interests of the City, and (6)
Boisterous or disruptive activity. Due to the nature of
James’s offenses, they were again classified as
Category B violations, which moved her to Step 4
under the City’s progressive discipline policy. The
punishment range for a Category B, Step 4, violation
is 16 to 29 days. For each incident—the February 8
incident and the February 9 incident—Major William
Simmons, the Commander of the CID at the time,
Based on the record, particularly James’s own statements, it
is unclear by whom James was relieved of her duties. At times,
James claims that Major Jurkofsky relieved her of her duties,
and at other times, she claims that Lt. Coughlin relieved her of
her duties.
10

21a
recommended a 232-hour, or 29-working day,
suspension to Chief Finley.
On June 4, 2015, James was served with a
statement of disciplinary charges for these incidents,
and on June 24, 2015, Chief Finley met with James.
On July 7, 2015, Finley overturned the
recommendation and reduced the recommended
suspension from 464 cumulative hours to 232
cumulative hours, also noting that effective June 5,
2015, James had been transferred to the Patrol
Division. Chief Finley forwarded the recommendation
to Director Murphy. After James’s hearing before the
Mayor, the Mayor issued a decision to suspend James
for 232 hours, or 29 working days.11 Prior to James
serving her suspension, Chief Finley was advised
that, based on practice, James’s suspension should
have been 29 calendar days, not working days. Thus,
James’s suspension was ultimately reduced to 29
calendar days, which she served from November 23,
2015, until December 21, 2015.
According to James, James’s February 19, 2015
discussion with Sgt. Thornell was not the first hostile
discussion between them. James claims that Sgt.
Thornell shouted at and treated her in a hostile
manner almost daily in 2013, and that during this
time period, Sgt. Thornell told her that she was “just
like his wife” and that women “are all the same.”
James did not report any of these incidents to her
superiors until 2015. James also claims that Sgt.
Thornell was difficult to work with for everyone and
that he treated other subordinates in a hostile
manner, including Corporal G. Schnupp (white male),
who she claims had similarly heated or more heated
conversations with Sgt. Thornell but was never

22a
charged with insubordination or boisterous and
disruptive activity.
C.
2017 Termination
On September 10, 2017, James sent an email to
Captain Albert Wheeler, which was solicited,
regarding her opinion related to retention issues in
the Police Department. On September 26, 2017,
James sent a different, unsolicited email to Chief
Finley, Chief of Operations John Bowman, and Chief
of Staff Chris Wingard regarding her opinion related
to retention issues “just in case Wheeler didn’t
forward [her] message through to any of [them].”
After receiving James’s email and contacting Mickey
McInnish, Senior Staff Attorney in the City’s Legal
Department, Chief Bowman requested that Major
Shannon Youngblood, Commander of Sector B at the
time, review the email and recommend disciplinary
action based on the content of the email. For instance,
the email stated, in part: “This department is being
run like a dictatorship in a small Middle Eastern
country.”
Mayor Youngblood determined that James’s
email violated Article II, Section 2.102 Duties of
Responsible Employment (Respect to Superior
Officers). Aware of James’s pending lawsuit alleging
disparate treatment, Major Youngblood contacted the
Legal Department to determine how to proceed with
disciplinary action. Major Youngblood was advised
that, in her complaint, James referenced a white
detective, Detective Geier, who was allegedly charged
with violating the same policy when he was
disrespectful to his African-American female
supervisor, so Major Youngblood pulled Det. Geier’s
disciplinary action and confirmed that the detective
had been charged with the same violation—Respect to

23a
Superior Officers. In that case, the violation was
treated as a Category B violation. Given the parallel
nature of the offenses, Major Youngblood determined
that James’s offense was a Category B violation.
This was James’s third Category B violation,
and based on her previous disciplinary actions, this
placed her at Category B, Step 5, under the
progressive discipline policy, which is termination.
Following the progressive discipline policy, on October
16, 2017, Major Youngblood recommended to Chief
Finley that James be terminated. After reviewing the
evidence and meeting with James per her request
under the progressive discipline policy, Chief Finley
upheld Major Youngblood’s recommendation and
likewise recommended to Director Murphy that
James be terminated. The Mayor issued his decision
to terminate James on November 21, 2017, and James
was terminated on November 28, 2017.
II.
James’s Complaints of Race and Sex
Discrimination
On January 23, 2015, James met with Deputy
Chief Ron Cook and verbally complained about
alleged hostility—specifically from Sgt. Thornell—
and incidents that she felt were clear race and sex
discrimination “handed down by the CID Command,”
including being denied a transfer from Robbery to
Homicide. At two times during this meeting, James
claims that Deputy Chief Cook made inappropriate
sexual comments regarding her clothing while
seductively licking and biting his lips. When asked by
Deputy Chief Cook whether she wanted him to have
CID Command investigated or whether she wanted
him to handle it discreetly by speaking with Major
Jurkofsky, James told him she did not mind if he
spoke with Major Jurkofsky—she just wanted it to be

24a
handled. On February 5, 2015, James contacted Chief
Deputy Cook to see if he had spoken with Major
Jurkofsky because she claimed Sgt. Thornell’s
treatment toward her had worsened. Deputy Chief
Cook advised her that he had not contacted anyone
regarding their conversation.
According to James, after she made complaints
of race and sex discrimination, she received letters of
reprimand for “minuscule things” and her
performance was “nitpicked.” Specifically, on March
4, 2015, Sergeant Hudson, who was James’s
supervisor in the General Crimes Bureau, asked
James to provide a doctor’s excuse because she called
in sick with less than 40 hours of accumulated sick
time available. Because James failed to provide a
written excuse, she received a Written Warning. This
was the first time James had been asked by CID
supervisors to provide a doctor’s excuse after being out
sick.
In addition, James claims that at some point
she was “repeatedly” passed over or not considered for
a transfer to the Homicide unit.12 According to James,
the Homicide unit asserted that James’s transfers
were denied because a letter of transfer must be
submitted through the CID Chain of Command to be
considered.
But James claims that the policy
regarding transfer letters is generally only true for
officers who are assigned to other bureaus, such as the
Patrol Division, not for officers who are assigned to
the CID as an investigator or in an investigative
capacity. She claims the latter are shown courtesy by
being allowed to inter-divisionally transfer without a
letter of transfer.
On March 13, 2015, James provided a written
complaint—a 23-page letter— to Chief Finley

25a
outlining what she believed to be racially and sexually
discriminatory behavior as well as retaliation. One of
her complaints was that CID Command finds a way to
rectify complaints without involving Internal Affairs
or written discipline when the officer is part of their
“clique” or “one of their white counterparts” but not
when the officer is black.
On March 17, 2015, Rudy Martinez was
appointed, with the assistance of another
investigator, to conduct an investigation regarding
James’s allegations that the CID discriminated
against individuals with respect to how they were
disciplined, promoted, and moved within the
department. Martinez was selected by the Director of
City Investigations because he did not know any of the
participants and did not answer to anyone involved in
the incident. His investigation included interviews of
co-workers and supervisors in James’s department, a
review of documents and case files related to other
complaints made by James to City Investigations, a
review of case files of investigations James conducted
in her capacity as a detective, and an examination of
the race and sex of individuals recently promoted and
in current positions within the Police Department.
Neither the Director of City Investigations nor the
Police Department Command Staff ordered or
directed the outcome of Martinez’s investigation.
James filed her initial EEOC Charge on May 8,
2015, alleging race and sex discrimination and
retaliation based on her complaints of discrimination.
James filed her second EEOC Charge on November
30, 2015, again alleging race and sex discrimination
and retaliation. The EEOC issued James’s Notice or
Right to Sue letter on May 8, 2017, and James filed
this action on August 4, 2017.

26a
STANDARD OF REVIEW
Summary judgment is appropriate when the
“movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
The moving party “has the burden of either negating
an essential element of the nonmoving party’s case or
showing that there is no evidence to prove a fact
necessary to the nonmoving party’s case.” McGee v.
Sentinel Offender Servs., LLC, 719 F.3d 1236, 1242
(11th Cir. 2013).
If the moving party meets its burden, the
nonmoving party must then “go beyond the pleadings
and by her own affidavits, or by the depositions,
answers to interrogatories, and admissions on file,
designate specific facts showing that there is a
genuine issue for trial.” Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986) (internal quotations omitted). A
genuine dispute of material fact exists when the
nonmoving party produces evidence allowing a
reasonable fact finder to return a verdict in its favor.
Waddell v. Valley Forge Dental Assocs., 276 F.3d 1275,
1279 (11th Cir. 2001).
But “unsubstantiated
assertions alone are not enough to withstand a motion
for summary judgment.” Rollins v. TechSouth, Inc.,
833 F.2d 1525, 1529 (11th Cir. 1996). The Court views
the evidence, and all reasonable inferences drawn
therefrom, in the light most favorable to the
nonmoving party. Jean-Baptiste v. Gutierrez, 627
F.3d 816, 820 (11th Cir. 2010).
DISCUSSION
I.
Preliminary Matters
For the most part, James has failed to create a
factual record on which the Court can evaluate the
claims in her Complaint. The only evidence she

27a
submitted in opposition to summary judgment is her
own declaration (Doc. 122-1), which generally
reasserts her Complaint’s allegations. But that
declaration is full of inconsistencies, speculation,
ambiguities, and statements made without personal
knowledge. See Larken v. Perkins, 22 F. App’x 114,
115 (4th Cir. 2001) (noting that plaintiff’s “selfserving affidavit containing conclusory assertions and
unsubstantiated speculation” was properly found by
the district court “to be insufficient to stave off
summary judgment”).
In its reply brief, the City raises a “general
objection” to several specific statements in James’s
Declaration (Doc. 122-1), arguing that such
statements are based on inadmissible hearsay and are
not based on James’s personal knowledge. See Fed. R.
Civ. P. 56(c)(2) (“A party may object that the material
cited to support or dispute a fact cannot be presented
in a form that would be admissible in evidence.”); Fed.
R. Civ. P. 56(c)(4) (stating that a declaration filed in
support of or in opposition to a motion for summary
judgment “must be made on personal knowledge, set
out facts that would be admissible in evidence, and
show that the . . . declarant is competent to testify on
the matters stated”). The Court will disregard any
improper statements in the declaration and consider
the remainder of the declaration, which will be
addressed as necessary herein. See Dortch v. City of
Montgomery, Nos. 2:07-cv-1034 and 2:07-cv-1035,
2010 WL 334740, at *1 (M.D. Ala. Jan. 22, 2010)
(noting that courts may strike or disregard improper
statements in affidavit but consider the rest of the
affidavit).
II.
Discrimination Claims

28a
James asserts race and sex discrimination
claims against the City under Title VII, § 1983, and §
1981 (race only). Because these claims have the same
requirements of proof and are analyzed under the
same framework, the Court addresses James’s
intentional
discrimination
claims
with
the
understanding that its analysis applies equally to
each claim. Lewis v. City of Union City, Ga., 918 F.3d
1213, 1220-21 (11th Cir. 2019); Flowers v. Troup
Cnty., Ga., Sch. Dist., 803 F.3d 1327, 1335 (11th Cir.
2015) (“Though [plaintiff] brought claims under the
Fourteenth Amendment’s Equal Protection Clause
and 42 U.S.C. §§ 1981 and 1983 as well, their fates
rise and fall with his Title VII claims.”).
A.
McDonnell-Douglas Framework
Absent direct evidence, a claim for intentional
discrimination is analyzed under the familiar burdenshifting framework established in McDonnellDouglas Corp. v. Green, 411 U.S. 792 (1973). Flowers,
803 F.3d at 1335. Under the McDonnell-Douglas
framework, a plaintiff must first establish a prima
facie case of discrimination. Id. at 1336. To establish
a prima facie case, a plaintiff must show that (1) she
was in a protected class, (2) she was qualified to
perform the job, (3) she suffered an adverse
employment action, and (4) other similarly-situated
individuals outside of her protected class were treated
more favorably. Lewis, 918 F.3d at 1220-21. If the
plaintiff establishes a prima facie case, the burden
then shifts to the employer to offer a legitimate, nondiscriminatory reason for the adverse employment
action. Flowers, 803 F.3d at 1336. Once the employer
meets its burden of production, the burden shifts back
to the plaintiff to show that the employer’s proffered
reason is pretext for unlawful discrimination. Smith

29a
v. Lockheed-Martin Corp., 644 F.3d 1321, 1326 (11th
Cir. 2011).
James was explicitly asked in her deposition
whether she believed her 2015 suspension or her
termination was based on her race or sex, and she
unequivocally responded, “No.” (Doc. 114-4 at 59). In
light of James’s sworn deposition testimony that she
does not believe that she was suspended or
terminated because of her race or sex, the Court need
not address the arguments of her counsel to the
contrary. See Ross v. Jefferson Cnty. Dep’t of Health,
701 F.3d 655, 661 (11th Cir. 2012) (holding that
plaintiff waived her race discrimination claim by
responding “no” when asked during her deposition
whether she thought that her termination was related
to her race). Instead, James’s discrimination claims
appear to center around three potential adverse
employment actions: (1) her 2013 suspension, (2) her
March 4, 2015 Written Warning,13 and (3) the denials
to transfer her from the Robbery unit to the Homicide
unit.
First, the City argues that James has failed to
demonstrate that the denial of a transfer from the
Robbery unit to the Homicide unit is an adverse
employment action.14 The Court agrees.
An “adverse employment action” must “impact[
] the terms, conditions, or privileges of [the plaintiff’s]
job in a real and demonstrable way.” Jefferson v.
Though the Court has doubts regarding whether James has
demonstrated that the March 4, 2015 Written Warning is an
adverse employment action, the City does not raise this
argument, and thus the Court assumes without deciding that it
is an adverse employment action for summary judgment
purposes only.
13

30a
Sewon America, Inc., 891 F.3d 911, 920-21 (11th Cir.
2018). The impact “must at least have a tangible
adverse effect on the plaintiff’s employment.” Id. at
921. To determine whether an employment action is
“adverse,” courts use an objective test: whether a
reasonable person in the plaintiff’s position would
consider the employment action materially adverse.
Id.; Doe v. DeKalb Cnty. Sch. Dist., 145 F.3d 1441,
1448-49 (11th Cir. 1998).
When a plaintiff is denied another job within
the same organization, she must show that “a
reasonable person faced with a choice [between the
positions] . . . would prefer being transferred to [the
new] position.” Jefferson, 891 F.3d at 921 (quoting
Webb-Edwards v. Orange Cnty. Sheriff’s Office, 525
F.3d 1013, 1032 (11th Cir. 2008)). A plaintiff may
satisfy this burden by presenting evidence that the
new job has more prestige, improved wages, rank, or
benefits, or some other serious and material change in
the terms or conditions of her employment. Id.
(finding sufficient showing of adverse employment
action where new job had significantly different
responsibilities and plaintiff had strong basis for
preferring transfer because she was taking classes
related to the new job).
Though James’s prima facie burden is “not
onerous,” as the City points out, James spends a great
deal of effort asserting that a failure to transfer can
constitute an adverse employment action without ever
addressing how this one does. After the Court’s
examination of the record, the Court concludes that
James has failed to demonstrate that a reasonable
person in her position would have preferred being
transferred from the Robbery unit to the Homicide
unit.

31a
As an initial matter, James has failed to
identify how many alleged denials occurred or when
they occurred, severely inhibiting the Court’s ability
to conduct the fact-specific inquiry required. Further,
James testified during her deposition that the
transfer involved no increase in pay, and James has
offered no evidence that the transfer involved rank or
benefits. Finally, James has offered no evidence that
the transfer involved significantly different
responsibilities or that she had a strong basis to prefer
the transfer.
James testified that the Robbery and Homicide
units are both in the Major Crimes Bureau, which is
in the CID. In other words, James ultimately would
have been under the same CID Command about which
she complained. The only benefits of the transfer that
James identified were that it is “a more challenging
role” (though she did not identify in what way) and
that “you get to put it on your resume,” and the latter
is true with any job. In short, this evidence is
insufficient to show an adverse employment action.15
See Harrison v. Int’l Bus. Machines (IBM) Corp., 378
F. App’x 950, 954 (11th Cir. 2010) (holding that
plaintiff failed to show adverse employment action
where denial of lateral transfers did not result in
serious and material changes to terms and conditions
of employment); Webb-Edwards, 525 F.3d at 1032-33
(“The record in this case does not demonstrate that
passing over [plaintiff] resulted in a serious and
material change in the terms, conditions, and
privileges of employment. Her wages, benefits, or
rank were not affected.”). Thus, the Court addresses
James’s discrimination claims based on two
employment actions: her 2013 suspension and her
March 4, 2015 Written Warning.

32a
1.
2013 Suspension
The City argues that James’s prima facie case
fails because she cannot show a valid comparator.
Because James has failed to present any evidence of a
comparator outside of her own conclusory say-so, the
Court agrees.
As the Eleventh Circuit recently clarified, to
satisfy the fourth element of a prima facie case, a
plaintiff “must show that she and her comparators are
‘similarly situated in all material respects.’” Lewis,
918 F.3d at 1224. Whether a comparator is similar in
“all material respects” is determined on a case-by-case
basis, considering the individual circumstances in
each case. Id. at 1227. But ordinarily, a valid
comparator “will have engaged in the same basic
conduct (or misconduct),” “will have been subject to
the same employment policy, guideline, or rule as the
plaintiff,” “will ordinarily (although not invariably)
have been under the jurisdiction of the same
supervisor as the plaintiff,” and “will share the
plaintiff’s employment or disciplinary history.” Id. at
1227-28.
James argues that Det. Hogan (white male) is
a valid comparator with respect to her 2013
suspension. He is not. First, James and Det. Hogan
did not engage in the same basic misconduct. On the
one hand, James, while off-duty and outside of the
police jurisdiction, used her patrol vehicle—with its
emergency equipment activated— to pull in front of a
school bus and stop it on its route, boarded the bus,
pulled a boy off the bus, and detained him until a
county deputy arrived. On the other hand, Det.
Hogan used excessive force in some way against a
suspect who was arrested.16 Needless to say, while
both James and Det. Hogan may have engaged in

33a
misconduct, they did not engage in the same type of
misconduct. James’s argument “essentially boils
down to quibbling about whether [Hogan’s] . . . alleged
violations were worse than [her] own, not about
whether they were sufficiently similar.” Flowers, 803
F.3d at 1341. But “[o]n-the-ground determinations of
the severity of different types of workplace misconduct
and how best to deal with them are exactly the sort of
judgments about which we defer to employers.” Id. at
1341.
Because James and Det. Hogan engaged in
different types of underlying misconduct, the City also
charged James and Det. Hogan with violations of
different policies—James with (1) Duties of
Responsible Employment (Engaging in any activity
which may reflect negatively on the integrity,
competency, or ability of the individual to perform
his/her duty, or may reflect negatively on the
Department), (2) Duty in Off Duty Arrest, and (3)
Duties of Responsible Employment (Prompt and
accurate reporting of all official matters)17 and Det.
To the extent James claims that she did not violate this policy
because she fully disclosed the details of this incident to Sgt.
Hall, who failed to tell CID Command, the City has presented a
legitimate, non-discriminatory reason for its action by showing
that it had good, faith reasonable belief that she did. Winborn v.
Supreme Beverage Co., 572 F. App’x 672, 674 (11th Cir. 2015)
(recognizing that, in lieu of a comparator, a plaintiff disciplined
for violation of a work rule may establish a prima facie case by
showing that she did not actually violate the work rule, but the
employer may rebut this allegation by showing that it had a good
faith, reasonable belief that the plaintiff violated the rule). Th
City conducted an investigation, and Sgt. Hall advised that
James called him but did not fully disclose the incident. That the
City may have been mistaken in believing Hall’s statement does
not matter when an employer honestly believed that the
employee violated the policy, “the discharge is not because of race
17

34a
Hogan with Use of Excessive Force. Further, James
has presented no evidence that she and Det. Hogan
were under the same supervisor at the time or shared
a similar discipline history. In fact, James has offered
little to no proper evidence regarding the details of the
incident involving Det. Hogan. Because James has
failed to demonstrate any of the hallmark
characteristics of a valid comparator or any other
evidence that she and Det. Hogan were similar “in all
material respects,” James’s prima facie case fails.
Nevertheless, even assuming James could
establish a prima facie case, her claims would still fail
because she has not offered sufficient evidence that
the City’s proffered reasons for her suspension were
pretext for unlawful discrimination. James does not
dispute that she did in fact stop the school bus while
in her patrol vehicle, off-duty, and out of the police
jurisdiction. She does not dispute that she arrested
the boy for allegedly hitting her daughter. But she
does claim that Sgt. Hall falsely told Major Jurkofsky
that James did not fully disclose the details of the
incident, which led to her prompt and accurate
reporting violation and contributed to her suspension.
Based on the record, James believed Sgt. Hall
misinformed Major Jurkofsky “to keep himself from
being reprimanded for not contacting the chain of
command at the time,” i.e., not because of her race or
sex. (Doc. 114-4 at 52). Regardless, even if Sgt. Hall
acted out of discriminatory animus, the Mayor was
the ultimate decisionmaker regarding James’s
suspension, and James has offered no evidence that
[or sex].” Id. Further, as discussed in the text of the opinion,
James cannot show that the City’s reason for her suspension is
pretext for race or sex discrimination.

35a
the Mayor harbored any discriminatory animus or
had anything other than an honest, good-faith belief
that she committed the violations for which she was
suspended.18 The Mayor’s honest belief is further
bolstered by the fact that James agreed to accept
Chief Murphy’s recommendation for suspension and
waived her right to a hearing before the Mayor. See
generally Elrod v. Sears, Roebuck & Co., 939 F.3d
1466, 1470-71 (11th Cir. 1991) (explaining that
plaintiff, the alleged harasser, signed without
James’s entire claims center around the alleged discriminatory
and/or retaliatory motives of Sgt. Hall, Major Jurkofsky, Sgt.
Thornell, Deputy Chief Cook Major Simmons, and/or the “CID
Command” generally. But with one exception, the Mayor made
the final decision to discipline James and is thus the relevant
decisionmaker for purposes of her discrimination and retaliation
claims. To the extent any of the other individuals were involved
in James’s disciplinary actions, they at most made
recommendations regarding the appropriate disciplinary action.
Claims concerning these individuals’ alleged discriminatory
and/or retaliatory motives almost certainly lend themselves to a
“cat’s paw” theory of liability, which imposes liability on the
employer when the decisionmaker does not have discriminatory
animus but is influenced by a supervisor who does. See, Staub v.
Proctor Hosp., 562 U.S. 411, 415 (2011) (“[I]f a supervisor
performs an act motivated by [discriminatory] animus that is
intended by the supervisor to cause an adverse employment
action, and that act is a proximate cause of the ultimate
employment action, then the employer is liable.”). However,
James at no point presents such an argument and thus the Court
need not and does not determine whether the City is liable under
a cat’s paw theory. See Caldwell v. Clayton Cnty. Sch. Dist., 604
F. App’x 855, 861 (11th Cir. 2015) (affirming district court’s
decision declining to address cat’s paw theory of liability when
plaintiff presented no such argument at summary judgment and
reaffirming the well-settled notion “[t]he parties, not the district
court, bear the burden of formulating arguments based on the
evidence”).
18

36a
objection the paper that confirmed the sexual
harassment and that plaintiff had failed to show
employer’s belief was not credible). James also
attempts to show discriminatory animus by claiming
that Major Jurkofsky told her that he would have
done the same thing or worse if it has been his child,
but this statement in no way indicates discriminatory
animus by Major Jurkofsky—or more importantly,
the Mayor—or changes the fact that James violated
the policies. For these reasons, James has not
presented sufficient evidence that the City’s proffered
reasons for her suspension were pretext for unlawful
discrimination.
2.
March 4, 2015 Written Warning
With respect to her March 4, 2015 Written
Warning, James asserts only that she was
discriminated against because of her race. There is no
dispute that James did not provide a doctor’s excuse
after calling in sick with less than 40 hours of
accumulated sick time available.
James’s only
contention is that she should not have been
disciplined because white detectives who “called out
sick far more often were never asked to provide an
excuse from a doctor’s office.” But again, aside from
this conclusory allegation, James has presented no
evidence of a comparator. She has not identified these
“white detectives,” nor identified under what
circumstances they called in sick, how much
accumulated sick time they had, or whom their
supervisor was at the time. Thus, James’s prima facie
case fails.
But, even if James had established a prima
facie case, her claim would still fail because she has
not offered sufficient evidence showing that the City’s
reason for the disciplinary action was pretext for race

37a
discrimination. Other than conclusory allegations,
which are not evidence, James points to no evidence
showing that Sgt. Hudson harbored racial animus.
B.
Convincing Mosaic of Circumstantial
Evidence
Even if a plaintiff is unsuccessful under the
McDonnell-Douglas framework, the Eleventh Circuit
has held that a plaintiff may still survive summary
judgment if she presents a “convincing mosaic” of
circumstantial evidence to create a triable issue of fact
concerning the City’s discriminatory intent. Lewis,
918 F.3d at 1220 n.6; Flowers, 803 F.3d at 1336
(recognizing that establishing the elements of the
McDonnell-Douglas framework “is not, and was never
intended to be, the sine que non for a plaintiff to
survive a summary judgment motion”). Aside from
the evidence already addressed, James offers the
following additional evidence to support her claims for
discrimination: (1) that she was the only African
American female in the Major Crimes Bureau, (2) that
she was denied transfers from the Robbery unit to the
Homicide unit and less qualified white males were
selected instead, (3) that she was “nitpicked” and
“scrutinized” in comparison to white officers (race
only), (4) that Sgt. Thornell shouted at and treated
her in a hostile manner on a near-daily basis in 2013
and made sex-based comments to her (sex only), and
(5) that Deputy Chief Cook made sexual comments
and gestures to her (sex only).
Perhaps the most fatal flaw in James’s
“convincing mosaic” theory is that she has not shown
that any of these additional instances of supposed
discrimination involved the decisionmakers in her
2013 suspension and March 4, 2015 Written Warning.

38a
Still, the Court addresses each of her allegations in
turn.
First, that James was the only black female in
the Major Crimes Bureau during her time as a
Robbery detective is not enough to create a triable
issue of fact regarding the City’s discriminatory
intent. See Flowers, 803 F.3d at 1338 (noting that
plaintiff’s only evidence touching on race was that he
was first black football coach, which, without more,
was insufficient to show causal connection between
his race and termination).
Next, James claims that she was “repeatedly”
denies transfers from the Robbery unit to the
Homicide unit based on her race or sex. In addition to
the obvious shortcomings that James fails to identify
when these denials occurred and by whom, this
allegation is unsubstantiated for a number of other
reasons. James claims that a less qualified General
Crimes detective, a Mason Wells (white male), was
selected for additional training to groom him for a
position in the Homicide unit. Not only does James
fail to present evidence that Det. Wells was actually
transferred to the Homicide unit, the record makes
clear that James’s allegation is based on
“speculation,” not personal knowledge or any other
evidence. (Doc. 114-4 at 12).
James also argues that the Homicide unit
denied her transfer based on a false policy that she
had to submit a letter of transfer through CID
Command to be considered.
To support this
argument, she claims that four white male detectives
transferred to the Homicide unit, for which the City
was unable to produce letters of transfer.19 Without
more, including even the most basic identifiers of
these individuals, this is nothing more than a

39a
conclusory allegation unsupported by any evidence in
the record. For example, James has not shown that
she was similarly situated to any of these individuals.
Further, James has presented no evidence of
the false policy she claims prevented her from being
transferred. But even if she had, James also failed to
show that the City deviated from the policy because of
her race or sex. See Mitchell v. USBI Co., 186 F.3d
1352, 1355-56 (11th Cir. 1999) (“Standing alone,
deviation from a company policy does not demonstrate
discriminatory animus.”). Indeed, because James has
not identified who the decisionmakers were, it is
impossible
to
infer
that
these
unknown
decisionmakers harbored any discriminatory animus.
The only other evidence James offers to support
her race discrimination claims is that she was
“nitpicked” and “scrutinized” in comparison to white
officers, and the only example she provides is the
March 4, 2015 Written Warning, which the Court has
already addressed. The only other evidence she offers
to support her sex discrimination claims are the sexbased comments and gestures made by Sgt. Thornell
and Deputy Chief Cook, which are equally unavailing.
Even assuming James’s assertions are true, these
comments and actions are insufficient to withstand
summary judgment because, as discussed above,
James has not shown that either Sgt. Thornell or
Deputy Chief Cook made the decision to suspend her
in 2013 or to issue her a written warning in 2015.
III. Retaliation Claims
James asserts retaliation claims against the
City under Title VII based on her complaints of race
and sex discrimination and § 1981 based on her
complaints of race discrimination.20 Like James’s
discrimination claims, these claims are analyzed

40a
under the McDonnell-Douglas framework.
To
establish a prima facie case of retaliation, James must
show that (1) she engaged in statutorily protected
activity, (2) she suffered an adverse employment
action, and (3) there is some causal connection
between the two events. Thomas v. Cooper Lighting,
Inc., 506 F.3d 1361, 1364 (11th Cir. 2007).
The parties do not dispute that James’s formal
EEOC Charges and the filing of this lawsuit
constitute protected activity for purposes of James’s
prima facie case. But James claims that she first
engaged in protected activity on January 23, 2015,
when she verbally complained of race and/or sex
discrimination to Deputy Chief Cook. She then claims
she engaged in protected activity on March 13, 2015,
when she submitted a written complaint—a 23-page
letter—to Chief Finley, asserting, among other things,
that the CID Command disciplines white officers in a
more favorable manner than black officers. And
finally, she claims she engaged in protected activity
when she submitted a written complaint to Director
Murphy, outlining alleged instances of race and sex
discrimination.
The City argues that none of these complaints
constitute protected activity. Instead, the City claims
James did not engage in protected activity until she
filed her first EEOC Charge on May 8, 2015. The
Court rejects the City’s arguments. In all three
instances, James voiced her concerns about race and
sex discrimination to her superiors. A plaintiff “need
not prove the underlying claim of discrimination
which led to her protest.” Holifield v. Reno, 115 F.3d
1555, 1566 (11th Cir. 1997), abrogated on other
grounds, Lewis, 918 F.3d at 1224-25. This is true even
when
evidence
of
the
alleged
underlying

41a
discrimination is “slight,” as it is here. See id. Thus,
viewing the evidence in the light most favorable to
James, the Court finds that all of these instances
constitute protected activity for purposes of
establishing a prima facie case of retaliation.
The City next argues that James cannot show
a causal connection between her engagement in
protected activity and her adverse employment
actions. To establish a causal connection, James must
show that the relevant decisionmaker was “aware of
the protected conduct, and that the protected activity
and the adverse employment actions were not wholly
unrelated.” Shannon v. Bellsouth Telecomm., Inc.,
292 F.3d 712, 716 (11th Cir. 2002) (quoting Gupta v.
Fla. Bd. of Regents, 212 F.3d 571, 590 (11th Cir. 2000),
overruled on other grounds, Burlington N. & Santa Fe
Ry. Co. v. White, 548 U.S. 53 (2006)). Temporal
proximity alone may be enough to show that the
protected activity and adverse employment actions
were not “wholly unrelated,” but the temporal
proximity must be “very close,” Thomas, 506 F.3d at
1364. For example, a three- to four-month time lapse
between the events is not sufficiently close. Id.
Because James first engaged in protected activity on
January 23, 2015, her retaliation claims can
necessarily be predicated only on her March 4, 2015
Written Warning, her 2015 suspension, and/or her
termination.
A.
March 4, 2015 Written Warning
Assuming for purposes of summary judgment
that James’s March 4, 2015 Written Warning is an
adverse employment action, James prima facie case
still fails because she has not shown that her written
warning was causally related to her complaints of
discrimination. James has presented no evidence,

42a
direct or circumstantial, that Sgt. Hudson knew about
her verbal complaints of discrimination to Deputy
Chief Cook, which is the only complaint she had made
prior to receiving the written warning. According to
James, at least as of February 5, 2015, Deputy Chief
Cook told James that he had not contacted anyone
regarding their conversation.
Further, no
investigation regarding James’s allegations of
discrimination began until March 17, 2015. And
finally, Sgt. Hudson was a sergeant in the General
Crimes Bureau, not the Major Crimes Bureau, and
according to James, she was not reassigned to the
General Crimes Bureau until the end of February
2015. In short, James has not met her burden to show
that Sgt. Hudson knew about her complaints of
discrimination prior to issuing the March 4, 2015
Written Warning. See Kidd v. Mando Am. Corp., 731
F.3d 1196, 1212 (11th Cir. 2013) (“[Plaintiff] has not
offered any evidence to show that [the decisionmaker]
was aware of any of her protected complaints, making
it impossible for her to make out a prima facie case.”).
B.
2015 Suspension
1.
Prima Facie Case
Likewise, James has not shown a causal
connection between her complaints of discrimination
and her 2015 suspension. The City argues that James
has presented no evidence that the Mayor, the
relevant decisionmaker, knew about any of James’s
complaints of discrimination at the time he made his
decision to suspend her. The Court agrees. Based on
the evidence before this Court, Major Simmons made
a recommendation to Chief Finley regarding James’s
suspension. Chief Finley then overturned Major
Simmons’s recommendation and made his own
recommendation to the Mayor. But these were just

43a
recommendations, not final decisions. After James
had a hearing before the Mayor, the Mayor made the
decision on August 18, 2015, to suspend her. Because
James has offered no evidence to the contrary and has
not shown that the Mayor knew about her complaints
of discrimination when he issued his decision to
suspend her, James has failed to show a causal link,
and her prima facie case fails. See Russaw v. Barbour
Cnty. Bd. of Educ., 891 F. Supp. 2d 1281, 1292 (M.D.
Ala. 2012) (recognizing that knowledge requirement
is “common sense” because an individual “cannot have
been motivated to retaliate by something unknown to
him”).
2.
Pretext
Nevertheless, assuming arguendo that James
has established causation for purposes of her prima
facie case, James still cannot withstand summary
judgment because she has presented insufficient
evidence that the City’s proffered reason for her
suspension was pretext for retaliation. As evidence of
retaliatory animus, James claims that (1) Sgt.
Thornell handled the complaint made by Woodward’s
mother in an inconsistent, harsher manner than
usual, (2) Sgt. Thornell encouraged or “coached” the
complaint, (3) Sgt. Thornell treated her increasingly
worse shortly after she met with Deputy Chief Cook,
(4) she was told by the officer handling the
investigation that led to her suspension that Major
Simmons and Chief of Staff Jurkofsky influenced the
outcome of the investigation, and (5) she was told by
the investigator that CID Command “wanted the
conclusion of the case to yield founded charges.” All
of these assertions suffer from the same
insurmountable problem. Neither Sgt. Thornell,
Major Simmons, nor Chief of Staff Jurkofsky made

44a
the decision to suspend James, and thus their actions,
even if James’s assertions were true,21 do not show
that the Mayor acted with a retaliatory animus.
James next claims that Sgt. Thornell engaged
in similar or more heated discussions with Cpl.
Schnupp and that Cpl. Schnupp was not disciplined in
the same manner. Cpl. Schnupp is not a valid
comparator. James has offered no evidence that Cpl.
Schnupp is outside of her protected class, i.e., that he
has not made a complaint of discrimination. And even
if he were, James has not identified when any of these
alleged discussions took place and has offered no
evidence regarding the circumstances under which
they occurred, including evidence regarding Cpl.
Schnupp’s discipline history, who his supervisor was
at the time, whether the Mayor was aware of these
discussions, or any other relevant factor.
James also argues generally that the City did
not perform a thorough investigation of her
complaints of discrimination, which she claims shows
retaliatory animus. She points to the fact that
Martinez, who conducted the investigation, did not
interview multiple individuals she identified in her
Notwithstanding the fact that the Mayor is the relevant
decisionmaker for purposes of the Court’s analysis, the first two
allegations are conclusory and unsubstantiated by the record,
and any inference of retaliatory motive by Sgt. Thornell with
respect to the third allegation is irrelevant to the Court’s analysis
and dispelled by James’s own declaration. As for the fourth and
fifth allegations, James does not assert how, why, or in what way
Major Simmons and Chief of staff Jurkofsky influenced the
investigation, and she fails to identify to whom she is referring
in the “CID Command.” Either way, these actions alone are not
suspicious and still do not show a retaliatory motive by the
Mayor.
21

45a
complaints. But a closer look at the record reveals
that James lacks personal knowledge concerning the
details of Martinez’s investigation, including the
people who were interviewed. Still, even if Martinez’s
investigation was weak, James does not present
evidence that it was weak due to a retaliatory animus
harbored by Martinez or, more importantly, the
Mayor. See Pinney v. S. Nuclear Operating Co., No.
1:09-cv-235, 2011 WL 1215808, at *11 (M.D. Ala. Mar.
31, 2011) (finding that allegation that investigation
could have been more thorough did not establish
gender discrimination). In fact, there is no evidence
that the Mayor even knew about the investigation as
he did not know about James’s complaints of
discrimination.
The only additional evidence James offers is
that she was denied a transfer from the Robbery unit
to the Homicide unit. As with her discrimination
claims, James does not identify when, by whom, or
under what circumstances she was denied the
transfer, not does she present evidence of a
comparator who did not make a complaint of
discrimination and was treated more favorably.
Because James has presented no evidence regarding
who made the decision to deny her transfer, this
purported evidence in no way creates an inference of
retaliation.
C.
2017 Termination
The City concedes that the Mayor knew about
James’s lawsuit filed on August 4, 2017, when he
made the decision to terminate James on November
21, 2017.22 But without more, a three-month lapse in
time between the filing of the lawsuit and the Mayor’s
termination decision is insufficient to show a causal
connection, and James has presented no other

46a
evidence indicating that the Mayor was motivated by
retaliatory animus. See, e.g., Thomas, 506 F.3d at
1364.
When timing is the only basis for a retaliation
claim and the allegedly retaliatory adverse
employment action was “the ultimate product, of ‘an
extensive period of progressive discipline,’” which
began long prior to the plaintiff’s protected activity,
“an inference of retaliation does not arise.” Slattery v.
Swiss Reinsurance Am. Corp., 248 F.3d 87, 95 (2d Cir.
2001); see also Hervey v. Cnty. of Koochiching, 527
F.3d 711, 723 (8th Cir. 2008) (“Evidence that the
employer had been concerned about a problem before
the employee engaged in the protected activity
undercuts the significance of the temporal
proximity.”); Ducksworth v. Strayer Univ. Inc., No.
2:16-cv-01234, 2019 WL 1897278, at *17 (N.D. Ala.
Apr. 29, 2019) (stating that when “gradual adverse
actions began well before the plaintiff had ever
engaged in any protected activity, an inference of
retaliation does not arise” (quoting Slattery, 248 F.3d
at 95)); Jackson v. City of Homewood, Ala., No. 1:13cv-737, 2015 WL 5011230, at *9 (N.D. Ala. Aug, 24,
2015) (citing Slattery for a similar proposition).
Here, James had an extensive history of
disciplinary actions, including for insubordination
and disrespectful behavior, that began long before
James filed this lawsuit. As a result, prior to filing
this lawsuit and prior to sending her September 27,
2017 email, James was already at the last step before
termination under the City’s progressive discipline
policy. When James sent the September 27, 2017
email that led to her termination, the City’s unrefuted
evidence shows that it took steps to ensure that it
disciplined James in the same manner as others who

47a
were disciplined for the same violation. This suggests
the opposite of a retaliatory motive.
Specifically, after Major Youngblood reviewed
James’s email and determined that it violated
departmental policy, he sought advice from the Legal
Department and reviewed another detective’s
disciplinary action for the same violation. Given the
similar nature of the offenses, James’s violation was
categorized in the same manner as the other
detective’s—as a Category B violation. It is unclear
what more the City could have done to treat James
fairly in this circumstance. Based on James’s prior
discipline history, she was already at Step 4 under the
City’s progressive discipline policy and thus was
terminated. See July v. Bd. of Water & Sewer
Comm’rs, No. 11-cv-635, 2012 WL 5966637, at *11
(S.D. Ala. Nov. 29, 2012) (“In formulating disciplinary
action, an employer is not bound to consider a
particular misdeed in isolation, without the guidance
and context of the employee’s prior disciplinary
history.”).
Because James has failed to show that the
Mayor acted with a retaliatory motive and that her
termination was anything more than the culmination
of her extensive, and often egregious, discipline
history, James’s retaliation claims fail.
CONCLUSION
Based on the foregoing reasons, the City’s
Motion for Summary Judgment (Doc. 114) is due to be
GRANTED.
A final judgment will be entered separately.
DONE and ORDERED this 25th day of July,
2019.

48a

/s/ Andrew L. Brasher
ANDREW L. BRASHER
UNITED STATES DISTRICT JUDGE

